<html>
<title> - LEGISLATIVE HEARING ON H.R. 1206; H.R. 3023; H.R. 3940; H.R. 4451; H.R. 4830; H.R. 4835; H.R. 5044; AND A DRAFT BILL ENTITLED, ``VA HOME LOAN IMPROVEMENT ACT OF 2018''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
LEGISLATIVE HEARING ON H.R. 1206; H.R. 3023; H.R. 3940; H.R. 4451; H.R. 
 4830; H.R. 4835; H.R. 5044; AND A DRAFT BILL ENTITLED, ``VA HOME LOAN 
                       IMPROVEMENT ACT OF 2018''

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        TUESDAY, MARCH 20, 2018

                               __________

                           Serial No. 115-54

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-467                    WASHINGTON : 2019              
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                        Tuesday, March 20, 2018

                                                                   Page

Legislative Hearing On H.R. 1206; H.R. 3023; H.R. 3940; H.R. 
  4451; H.R. 4830; H.R. 4835; H.R. 5044; And A Draft Bill 
  Entitled, ``VA Home Loan Improvement Act Of 2018''.............     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     2

                               WITNESSES

The Honorable Luke Messer, U.S. House of Representatives, 6th 
  Congressional District; Indiana................................     2
The Honorable Ted Poe, U.S. House of Representatives, 2nd 
  Congressional District; Texas..................................     4
The Honorable Steve Russell, U.S. House of Representatives, 5th 
  Congressional District; Oklahoma...............................     5
The Honorable Brad Wenstrup, U.S. House of Representatives, 2nd 
  Congressional District; Ohio...................................     6
The Honorable Gus Bilirakis, U.S. House of Representatives, 12th 
  Congressional District; Florida................................     7
MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     9
    Prepared Statement...........................................    22

        Accompanied by:

    Mr. Jeffrey London, Director, Loan Guaranty Service, Veterans 
        Benefits Administration, U.S. Department of Veterans 
        Affairs
Mr. John J. Kamin, Assistant Director, Veterans Employment and 
  Education Division, The American Legion........................    11
    Prepared Statement...........................................    25
Ms. Ashlynne Haycock, Manager, Education Services, Tragedy 
  Assistance Program for Survivors...............................    13
    Prepared Statement...........................................    30
Mr. William Hubbard, Vice President of Government Affairs, 
  Student Veterans of America....................................    14
    Prepared Statement...........................................    33
Bonnie Carroll, Founder and President, Tragedy Assistance Program 
  For Survivors, prepared statement only.........................    40

                       STATEMENTS FOR THE RECORD

Matt Miller, Deputy Assistant Secretary, Veterans' Employment And 
  Training Service, U.S. Department Of Labor.....................    40
Jared Lyon, Student Veterans of America (SVA)....................    43

Joseph W. Wescott II, Legislative Director, National Association 
  of State Approving Agencies, Inc., For Veterans Education and 
  Training.......................................................    44
Larry Madison, Legislative Director, The Retired Enlisted 
  Association....................................................    45


LEGISLATIVE HEARING ON H.R. 1206; H.R. 3023; H.R. 3940; H.R. 4451; H.R. 
 4830; H.R. 4835; H.R. 5044; AND A DRAFT BILL ENTITLED, ``VA HOME LOAN 
                       IMPROVEMENT ACT OF 2018''

                              ----------                              


                        Tuesday, March 20, 2018

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                   Subcommittee on Economic
                                                Opportunity
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:00 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bilirakis, Wenstrup, Rutherford, 
Banks, O'Rourke, Correa.

         OPENING STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Let me go ahead and gavel in.
    Good afternoon, everybody. The Subcommittee will now come 
to order. I want to thank you all for joining us here today to 
discuss 8 pieces of legislation pending before the Subcommittee 
with the intentions of benefitting the lives of our 
servicemembers, veterans, and their families.
    The bills brought forth by our colleagues today would make 
additional improvements and changes to the GI Bill and VA's 
Home Loan Program, as well as provide additional resources for 
servicemembers after they transition to civilian life; make 
minor and technical changing to ensure surviving spouses retain 
ownership of a servicemember's small business after they have 
passed away; and improve the Homeless Veterans' Reintegration 
Program, administered by the Department of Labor.
    I will let our colleagues who introduced these pieces of 
legislation discuss their bills in greater detail, but I do 
want to briefly discuss the one draft bill on the agenda today 
that has not yet been introduced. This proposal encompasses the 
language of two bills that we have already examined in this 
Subcommittee and have gone through regular order that would 
make changes to the Home Loan Program administered by the VA. 
Part of the bill would eliminate the current conforming loan 
limit for VA-backed mortgages so that veterans are able to 
afford homes in higher-cost areas.
    This would not change the underwriting standards currently 
in place for veterans to become eligible for the loan, but 
would ensure veterans are not barred from buying a home in more 
expensive areas of the country, due to some arbitrary caps set 
by the Government.
    This draft also includes language from the bill that 
Ranking Member O'Rourke and I introduced earlier this Congress, 
to improve the appraisal process for VA home loans by allowing 
VA-approved appraisers to use the information provided to them 
by a third-party appraiser for their desktop. This is from 
their--from their desktop, rather--this proposal would improve 
the processing time for appraisals so that veterans are able to 
close on their homes in a quicker and more seamless manner.
    Lastly, this draft would require veterans who are less than 
100 percent service-disconnected disabled to pay the fund--the 
funding fee on their VA home loan if they purchase a home that 
costs more than the current conforming loan; i.e., a more 
expensive home in a high-cost area. This funding fee would be 
rolled into the life of the loan and would still be--then be 
allowed--a veteran to use their VA home loan with a zero down 
payment.
    I am eager to discuss each of the 7 pieces of legislation 
before us today. I am also grateful to my colleagues who have 
introduced these bills and to our witnesses who are here to 
discuss them.
    Before I yield to my friend and Ranking Member, Mr. 
O'Rourke, do I want to briefly touch on the frustration that we 
feel on the Committee--and maybe I should just speak for 
myself--with the Department of Labor, for once again declining 
to testify at our Subcommittee hearing, simply because they 
would be on a panel with non-Government witnesses.
    I don't understand that, Mr. Ranking Member, and I am going 
to send a letter and follow up. Today's hearing would be--have 
benefited from DOL's participation, as there is several bills 
on the agenda that affect their Department and the customers 
they serve, and our customers are veterans. Notwithstanding 
this policy by Labor, I do want to thank General Worley and our 
partners at the VA for participating in today's hearing.
    And, now, finally, I will yield to the Ranking Member from 
the Great State of Texas for any opening statements he might 
have.

       OPENING STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. O'Rourke. Mr. Chairman, thank you. And in the interests 
of hearing from our colleagues, I will waive any opening 
remarks. I look forward to learning more about these bills and 
working together with you and other Members of the Committee to 
see how we can improve the care and services that we provide to 
those who have served this country.
    With that, I will yield back.
    Mr. Arrington. Mr. Messer, since you were here first, I am 
going to go ahead and start with you and save the Texan for the 
best for the last, you know?

               STATEMENT OF HONORABLE LUKE MESSER

    Mr. Messer. I have to admit, I am a little surprised. I 
assumed here, Texas would just come first, just looking at the 
leadership of the panel--
    Mr. Arrington. As I said, the best for the last.
    Mr. Messer [continued]. --but I appreciate the politeness.
    Mr. Arrington. You have got 5 minutes. I yield to your 
time, sir.
    Mr. Messer. Thank you. Thank you, Chairman Arrington, and 
other Members of the Committee, the Members of the Economic 
Opportunity Subcommittee, including my good friend and a great 
and distinguished Hoosier, Congressman Jim Banks, for his 
leadership on this Committee and who is also a co-sponsor of 
the legislation that I am going to talk to you about today.
    This bill is just a common sense, bipartisan bill that 
provides greater flexibility in the way our veterans can use GI 
Bill benefits. As we all know, the GI Bill has provided 
millions of our Nation's veterans who have served our country, 
the opportunity to pursue a college degree. As we near the 75th 
anniversary of the program's inception, it remains one of the 
most successful Federal programs in our Nation's history, as it 
has empowered veterans and their families to pursue their 
dreams.
    However, the GI Bill does not cover the cost of one of the 
first steps towards earning a degree: the cost of applying to 
go to college. The typical fee for a single college application 
can now rise to as much as $90 and with school admittance 
experts recommending prospective students apply to 6 or 8 
schools, total application costs can create an unexpected 
financial burden and a barrier to opportunity with costs of 
hundreds of dollars per student.
    The Reducing Barriers for Veterans Education Act would 
remove this financial barrier by allowing veterans to voluntary 
choose to use part of their Post-9/11 GI Bill to cover the cost 
of application fees. This bipartisan bill would not expand the 
entitlement, because the cost of application fees, up to $750, 
would be deducted from our, the veteran's overall benefit.
    Our men and women in uniform deserve a modern sized GI 
Bill--I appreciate this Committee's work in that regard--a 
modernized bill that removes obstacles that our veterans face 
when they are pursuing a degree. This legislation is a simple, 
common sense change that makes it easier for our veterans to 
take the first step towards a new career.
    This legislation has received outside support from Student 
Veterans of America, Veterans Education Success, The American 
Legion, and The Retired Enlisted Association.
    Thank you, Mr. Chairman and the entire Veterans Affairs 
Committee and your team for your work on this important bill. I 
yield back.
    Mr. Arrington. Thank you, Mr. Messer. And unless there are 
any questions, I am going to excuse you unless you want to stay 
and listen to the eloquence of Judge Poe.
    Mr. Messer. Any time I can listen to Ted Poe, I am not 
going to miss that opportunity.
    Mr. Arrington. That is what I would--
    Mr. Messer. So, I may listen to him and then slide out.
    Mr. Arrington. Most people would pay to hear what we are 
about to hear from Judge Poe.
    Judge, we yield 5 minutes to our friend and fellow Texan.

                 STATEMENT OF H0NORABLE TED POE

    Mr. Poe. I thank the Chairman, Mr. Arrington, and the 
Ranking Member, Mr. O'Rourke, and the rest of the Veterans 
Committee, and I want to discuss legislation H.R. 3940, which 
the Ranking Member is a co-sponsor of, the Veterans Education 
Disaster Assistance Act.
    I am the son of a World War II veteran. My dad is 93, still 
very active and opinionated, served World War II in Germany and 
came back to Fort Bliss, Fort Polk, and Fort Hood, as well. He 
benefited from the GI Bill. He was not only the first person to 
go to college, he was probably the first person in our family 
who could spell college.
    And after going to college, he became an engineer and did 
quite well for our family and it is because of the GI Bill. It 
is one of the things that Congress has actually done and done 
right is the GI Bill and it has served our country quite well, 
like my dad.
    I am also a veteran and I am thankful for what the 
Committee does for our veterans to receive the best possible 
care, benefits, and support after they come back from the 
battlefield throughout the world.
    Six months ago, Hurricane Harvey ravaged a part of Texas, 
including most of my congressional district; 130,000 structures 
were flooded in my congressional district because of Hurricane 
Harvey. Fifty-five inches of rain in just a few days, and we 
have had floods since then because of Hurricane Harvey and the 
repairs that have not been done, which is another story.
    But anyway, shortly after Hurricane Harvey, Daniel Sublett 
(ph), a constituent and a veteran of the United States Air 
Force, he was attending a local community college in our 
district, the Lone Star College of Kingwood. He sought help 
from our office. Lone Star College was hit hard by Hurricane 
Harvey and students could not go there for weeks; seven of the 
nine campuses throughout the Houston area flooded, causing $15 
million in damages. Some of those campuses have still not 
reopened because of the damage.
    As a response to Harvey, the school instructed its students 
to take online courses until the school could repair and reopen 
the physical campuses. Most of the campus was able to come back 
and students on September 25th, a month after Harvey was hit, 
but unfortunately, under the VA's basic allowance for housing, 
veterans who take online courses are only eligible to receive 
at most, one-half of their BAH, when they are taking online 
courses, as they would if they took the courses in person.
    So, because of this, Daniel Sublett, who is also a local 
Student Veterans of America chapter president, and many other 
veterans attending Lone Star College in Kingwood were told by 
the VA that they would only receive one-half of their normal 
BAH for September and only the month of September. So, in many 
cases, the amount they were told they would receive would not 
even cover the cost of their bills.
    Although Daniel and a handful of other veterans were able 
to get a waiver and receive their full BAH for that month, this 
is not the case for most veterans affected by natural 
disasters. The VA currently has a waiver that allows veterans 
to receive their full BAH, if forced to take online courses for 
up to four weeks only.
    This legislation extends that waiver to cover an entire 
semester. The reality is that it is not always possible for 
schools to reopen their doors in just four weeks because of a 
natural disaster. Most must--much of Lone Star College Kingwood 
remained closed until at least May of this year. It may not 
reopen at that point.
    So, because of that, veterans have left the Lone Star 
College system. They are seeking admittance somewhere else and 
this legislation allows the VA to extend the waiver for a full 
semester and not just one month of that semester.
    And I will yield back to the Committee, and thank you for 
your support.
    Mr. Arrington. Thank you, Judge. A great story, and God 
bless your dad, and thank you for your service.
    And thank you, the distinguished gentleman from the Great 
State of Indiana for your testimony today and your great ideas 
and for bringing them to the Committee.
    So, you guys--we don't have any questions, and we will have 
our next panelist come up and we will discuss it later behind 
your backs. Mr. Russell, our friend from Oklahoma, we yield 5 
minutes for you to talk about your legislative proposal.

              STATEMENT OF HONORABLE STEVE RUSSELL

    Mr. Russell. Thank you, Mr. Chairman, and thanks to the 
Committee.
    Each year, with the GI Bill, as soldiers and warriors have 
left the service, they try to go get an education. And it 
should be a straightforward system, but as we know, it is full 
of complication. A recent GAO report certainly showed that to 
be the case.
    Ideally, a soldier would enroll. The institution says, 
Okay, Russell is enrolling. Money comes to the institution. 
They go to class. They get their college education. The money 
is paid. Everybody is happy.
    It doesn't always work that way; in fact, if the soldier 
were to not enter a term for whatever reason--maybe he wants to 
do some work or she wants to do something--then the school is 
still paid the money and then you have uncollected funds that 
have been paid out to the institutions or to the veteran 
himself. Then, if the soldier were to drop a class, say, that 
they are going, and now you have got another construct where 
monies have been paid for a full tuition load and instead, it 
is a partial tuition load, and all of that really resolves 
around how do you recoup it and why should you?
    Now, replete in government, there is nothing in government 
that is so hard we can't make harder, and we certainly do that 
with fees. I am kind of a fee-hunter, and this is a fee where 
we somehow got the notion that a ``$16 I am going to charge you 
your money back fee'' that institutions are able to do--$16 
fee.
    So, VA calls and says, hey, you paid too much out on 
Russell. He only went to three classes instead of four. And 
then they say, Okay. I will give you your money back, but it is 
going to cost you $16. And we do this to the tune of nearly $13 
million in the last statistical year. It is higher now and we 
don't know what that figure is.
    Now, the institutions are pretty faithful about returning 
it back, but you would find it surprising, or maybe not, half 
of all this un-recouped money revolves around 5 percent of 
institutions. So, it is an institutional problem.
    Why should we pay and why should the Government be charged 
to collect something that was already theirs? And we have heard 
things like, well, you know, it is a carrot to try to get them 
to do this and pay back--it only becomes a carrot because it is 
allowed. The issue with this is that if you took the $13 to $15 
million it takes to recoup $15 million, we could, instead, 
apply that to the average tuition cost of $15 to $16,000 per 
warrior, and the net effect of that is, you would have 832 more 
veterans that are able to go to school.
    So, how much does that $16 make sense then? And I know I 
won't get a chance for cross-examination or questions here, but 
I would have loved to have had that opportunity, but I 
certainly am respectful of things here.
    This is the first part of a three-part fix where we are no 
longer allowing institutions to charge the Government to give 
back what is the Government's money, that was collected from 
taxpayers for the purpose of educating veterans, not for U.S. 
Trustee the purpose of lining administration.
    The first of the fix is eliminate the handling fees, such 
as this $16 fee. The second would be to require schools to have 
VA-certified officials. Now, this amendment does not address 
that; it only addresses the first part because this is the low-
hanging fruit. Right now, the certifying officials are not 
certified because they can't be compelled, because there is no 
law that compels them. In many other aspects of whether or not 
they receive are money from other programs for educational 
purposes, they can be compelled and they are told to have 
certain training, so that is part of the fix.
    And the third fix would be require schools to apply for 
tuition payment mid-term, and this, Mr. Chairman, would 
eliminate 90 percent of overpay issues. Why? Because, instead, 
they pay the institutions on the promise that they think the 
veteran is going to go to school. Things may change upon 
enrollment--enrolling day, things my change on the class 
schedule in the first few weeks.
    So, we could have an actual construct in the three-part 
fix, and more to follow, where at the end of that, then we say, 
Okay. At mid-semester, we are going to charge the Government on 
Russell actually spent and then we don't play this drill of 
spending $15 million to collect $15 million or $13 million to 
collect $13 million.
    We can't fix everything, Mr. Chairman, but we can fix $16 
fees that add up to millions of dollars that could educate more 
veterans.
    And with that, I yield back.
    Mr. Arrington. Thank you, Mr. Russell, for your testimony 
and, again, thank you for bringing that great idea for us to 
consider as a Committee and thank you for your commitment and 
your service to the very best among us, our veterans. God bless 
you. Thanks for your time.
    And now, I will yield to Chairman Wenstrup for 5 minutes to 
talk about his legislative proposal that we will consider 
today.

              STATEMENT OF HONORABLE BRAD WENSTRUP

    Mr. Wenstrup. Well, thank you, Mr. Chairman, for yielding. 
And I want to thank Chairman Arrington and Ranking Member 
O'Rourke for addressing this important bill at today's hearing. 
I appreciate it.
    I would also like to thank, in advance, all the witnesses 
for their testimony and sharing their thoughts on this 
legislation.
    In November of last year, I joined my colleague and the 
Ranking Member of the health Subcommittee, Representative 
Brownley, in reintroducing H.R. 4451, the Homeless Veterans' 
Reintegration Program's Reauthorization Act of 2017. This bill 
would provide much-needed services to our veterans 
transitioning to civilian life and ensure that no veteran falls 
through the unintended legislative gaps in programs.
    We do this by ensuring that those eligible for the 
Department of Housing and Urban Development's Veterans Affairs 
Supportive Housing Program and other housing assistance 
programs are also eligible for the Homeless Veterans' 
Reintegration Program. The gap arises because the Department of 
Labor considers veterans participating in these housing 
assistance programs to no longer be homeless, and, therefore, 
ineligible. So, as such, they can't participate in the Homeless 
Veterans' Reintegration Program.
    So, I think you can see the obvious gap that exists here. 
So, far too often, servicemembers face a number of challenges 
assimilating back to civilian life as it is. By prioritizing 
the reintegration of homeless and recently homeless veterans, 
we will empower our veterans to re-enter the workforce and help 
them regain self-sufficiency.
    Our veterans, obviously, sacrificed so much for our 
country, and I think it is up to us to make sure they have the 
tools to succeed in civilian life. I am proud of this 
Committee's commitment to reducing veteran homelessness and I 
am eager to hear the witnesses' thoughts on this piece of 
legislation.
    And with that, Mr. Chairman, I yield back.
    Mr. Arrington. I thank the gentleman from Ohio, and now I 
yield 5 minutes to Mr. Bilirakis.

              STATEMENT OF HONORABLE GUS BILIRAKIS

    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it so 
very much.
    I thank, again, to the Chairman and the Ranking Member, Mr. 
O'Rourke, and all the distinguished Members of the Economic 
Opportunity Subcommittee, and all the Members for allowing me 
to present this afternoon before the Committee.
    I am proud of the work that this Committee has done to 
ensure that we, as a Nation, take care of our true American 
heroes, our veterans, when they return home; specifically, I am 
proud of the work our Committee conducted last year to pass the 
Harry W. Colmery Veterans Education Assistance Act, or the 
Forever GI Bill. This historic legislation expanded access to 
education and improves and modernizes the GI Bill for our 
veterans.
    But there is always more work to be done for these 
honorable Americans. I also thank the VSOs for their input. In 
order to give the best opportunities to our Nation's heroes, we 
must be prepared to address new needs as they are identified.
    In December, our Subcommittee had a chance to examine the 
implementation of the Forever GI Bill. We heard from 
stakeholders, such as the Tragedy Assistance Program for 
Survivors, who expressed concern about the delay of payments 
and processing time for GI Bill benefits by both, the school 
and the VA. I also had a roundtable in my district and veterans 
expressed their concerns, as well. I also want to thank the 
staff for bringing this to my attention here, the Committee's 
staff.
    As a result of some of these delays, some schools put on 
hold, a veteran's account or start focusing the student to 
begin payment of tuition and fees on a payment plan until they 
receive money from VA. TAPS highlighted occurrences at, at 
least 15 schools and universities across the country. In 
response to these concerns, I worked with the Committee to 
introduce H.R. 4830, the Servicemembers Improved Transition 
through Reforms for Ensuring Progress Act, or the SIT-REP Act.
    My bill would give the secretary the authority to 
disapprove courses of education unless the educational 
institution adopts a policy ensuring that it would permit 
student veterans to attend those courses beginning on the date 
in which the individual provides to the educational 
institution, a certificate of eligibility for entitlement to GI 
Bill benefits. Furthermore, my bill would require that in order 
for a school or a training program to be eligible for a GI Bill 
benefits, the institution must adopt a policy that prohibits 
them from imposing a late fee denying access to education or 
other penalties due to a late payment from VA.
    This policy would only apply if the payments have not been 
received within 90 days of the beginning of the term. 
Additionally, the secretary would have the authority to waive 
this requirement as he sees fit.
    The SIT-REP Act is a common sense, bipartisan bill that 
protects student veterans and their families, who through no-
fault of their own, are denied access to education because the 
school made a mistake or the VA made a late payment. It is not 
the fault of the veteran. Again, I want to repeat that: It is 
not the fault of the veteran. They don't need that excess 
stress and they should not be punished for the actions of 
others.
    Mr. Chairman, I have three letters of support for the SIT-
REP Act: One from the Tragedy Assistance Program for Survivors, 
one from The Retired Enlisted Association, and one from the 
Student Veterans of America, which I would like ask unanimous 
consent to include for the record. I have the three here, right 
here.
    Mr. Arrington. Without objection.
    Mr. Bilirakis. I promise you they are here, okay. Thank you 
very much.
    In closing, I remain dedicated to ensuring that our 
Nation's veterans have access to the important educational 
benefits they have earned and deserve. As these brave men and 
women fought on our behalf, we have a responsibility to do the 
same by ensuring they are harmless--held harmless from 
bureaucratic penalties and fees.
    Again, this is a common sense bill. You know, we don't--our 
veterans, they don't need this added stress. Let's take care of 
this as soon as possible. I ask my colleagues to support this 
beneficial piece of legislation and I yield back.
    Thank you, Mr. Chairman.
    Mr. Arrington. I thank my friend from Florida and I want to 
say if you got common sense solutions, the EO Subcommittee is 
the place to be, right, Ranking Member?
    Mr. O'Rourke. Right.
    Mr. Arrington. And I want to thank both, Mr. Wenstrup and 
you, for offering up your ideas to improve services for our 
veterans.
    And without any further ado--and I don't believe we have 
any questions for our colleagues--let's go to our second panel 
of witnesses today. So, if you guys would please take your 
seats, we will give you just a minute, here.
    Let me go ahead and make the introductions as you are 
getting situated. We want to welcome back General Rob Worley, 
Director of VA's Education Service, who is accompanied by Mr. 
Jeff London, Director of VA's Loan Guaranty Services. I also 
want to welcome back Mr. John Kamin, Assistant Director of 
Veteran Education and Employment for The American Legion; Ms. 
Ashlynne Haycock, Manager of Education Services for the Tragedy 
Assistance Program for Survivors; and Mr. Will Hubbard, Vice 
President of Government Affairs for Student Veterans of 
America.
    Again, thank you guys for being with us today and each of 
you will be recognized for 5 minutes. So, General Worley, we 
will begin with you.

         STATEMENT OF MG ROBERT M. WORLEY, USAF (RET.)

    Mr. Worley. Thank you, Mr. Chairman.
    Good afternoon, Chairman Arrington, Ranking Member 
O'Rourke, and other Members of the Subcommittee. Thank you for 
the opportunity to be here today to provide the views of the 
Department of Veterans Affairs on pending legislation. With me 
today, as you mentioned, are Mr. Jeffrey London, director of 
the Loan Guaranty Service and Mr. Tom Leney, executive director 
of the Small and Veterans Business Programs, Office of the 
Small and Disadvantaged Business Utilization.
    Because of the timing of the receipt, we are not able to 
provide formal views on H.R. 1206 and H.R. 3023. We will follow 
up with the Committee soon on these two bills.
    Additionally, there are two bills under discussion today 
which would affect programs or laws administered by the 
Department of Labor. We respectfully defer to that Department's 
views on H.R. 4451 and H.R. 4835.
    H.R. 3940, as you heard, would require the VA secretary to 
pay a monthly stipend to an individual pursuing a course of 
education using the Post-9/11 GI Bill, if that individual is 
forced to discontinue this pursuit because of the closure of 
the school due to a natural disaster and the individual opts to 
pursue that course or an alternative course of education solely 
by distance learning. The bill would also require VA to pay an 
additional lump sum amount for books, supplies, equipment, and 
other educational costs.
    Significantly, no charge would be made against the GI Bill 
entitlement of any individual receiving payment under this 
legislation.
    VA supports the intent of 3940, however, we have serious 
concerns with several aspects of the bill related to disparate 
treatment of beneficiaries and we believe the bill needs 
several clarifications.
    H.R. 4830 would require a State approving agency to 
disapprove programs of education unless the institution has 
adopted a policy allowing the student to attend classes if he 
or she produces a certificate of eligibility showing 
entitlement under Chapters 30, 31, 33, or 35. The institution 
would also have to adopt a policy not to impose any penalty, 
such as late fees, denial of access to facilities, or requiring 
the student to borrow funds to pay tuition because of delayed 
payments from VA.
    VA supports this bill, as well, but also has some concerns 
with it. VA does not make tuition and fee payments directly to 
institutions under Chapters 30 and 35; but rather pays the 
monthly benefit payments directly to the student. Consequently, 
as currently written, individuals entitled to assistance under 
Chapters 30 and 35 would always be permitted to attend for 90 
days, regardless of when VA begins issuing benefit payments in 
order for the institution to avoid program disapproval.
    H.R. 5044 would allow a surviving spouse of a veteran whose 
disability rating was less than 100 percent to be treated as a 
covered surviving spouse for purposes of VA contracting goals 
and preferences for a period of up to 3 years. While VA 
supports the intent of this bill, changes must be made before 
VA can support it.
    The National Defense Authorization Act for fiscal year 
2017, will amend the relevant provisions in 38 U.S.C. Section 
8127 to mirror those set forth in the Small Business Act. 
Accordingly, VA recommends that the proposed amendment be 
incorporated into the Small Business Act. There would be 
minimal or no costs associated with this bill.
    The draft Home Loan Bill would make various changes to VA's 
Home Loan Program. Section 2(a) of the bill would adjust the 
maximum guaranty amount under VA's Home Loan Program. However, 
the uncertainty in budgetary impacts, because of that, VA 
cannot support Section 2(a) at this time.
    Section 2(b) of the bill would change the exemptions 
permitted with regard to VA's statutory loan fee. Due to the 
way this provision is drafted, it is unclear to VA which 
veterans Congress intends to exempt from paying the loan fee.
    VA welcomes the opportunity with this and all the 
legislation--the educational legislation, to work with the 
Committee to make sure that your intended outcomes are provided 
in the language.
    VA supports enactment of Section 3, as it would enable VA-
designated appraisers to expand their coverage areas and would 
increase the number of appraisals they could perform in a 
timely manner.
    This concludes my testimony. We appreciate the opportunity 
to present our views on these bills and we look forward to your 
questions.
    Thank you, Mr. Chairman.

    [The prepared statement of MG Robert M. Worley appears in 
the Appendix]

    Mr. Arrington. Thank you, General Worley.
    And I apologize, Mr. Kamin, for mispronouncing your last 
name--Kamin--Mr. Kamin, you have 5 minutes. Thank you, on 
behalf of The American Legion, for joining us today.

                   STATEMENT OF JOHN J. KAMIN

    Mr. Kamin. Thank you, Mr. Chairman, Ranking Member.
    On behalf of National Commander Denise Rohan and 2 million 
members in The American Legion family, we provide our strongest 
accommodation to the Subcommittee for the extraordinary job it 
has undertaken, honing in on the challenges and solutions to 
veterans' successful transitions.
    In just the last 4 months, you have convened roundtables 
and hearings on improving TAP, VA home loans, and tackling 
veterans' homelessness. And there has never been an echo 
chamber; you have held us all to task, from veterans' 
organizations to our government and community partners.
    We will begin with GI Bill and H.R. 4830, the SIT-REP Act. 
This bill would require schools to adopt policies that disallow 
them from imposing late fees or other penalties to 
beneficiaries due to late payments from VA.
    The American Legion applauds Congressman Bilirakis for 
addressing this important issue. On a personal note, I remember 
a late VA payment when I was in school, being the questions 
about whether I could still attend my classes. My student 
veterans' organization at the time, AU Vets, was able to 
successfully lobby our institution to update their internal 
policies to allow myself and other veterans to continue our 
studies.
    But TAPS deserves credit for championing this bill by 
recognizing that this should not fault the student veterans, 
though allowed before; it should be mandated by principle. The 
American Legion enthusiastically supports passage of H.R. 4830.
    Turning our attention to small business, we have H.R. 5044, 
the Service-Disabled Veterans Small Business Continuation Act. 
Amongst the range of benefits our country has developed to 
provide transition assistance to disabled veterans, has been 
set aside contract benefits for companies considered service-
disabled veteran-owned small businesses.
    The 2017 NDAA specifies a surviving spouse may continue to 
operate a company as an SDVOSB when a veteran dies under 
certain conditions, such as they had a disability rated at 100 
percent disabled. H.R. 5044 would expand this criteria to give 
surviving spouses with less than total-disability ratings, the 
option of maintaining SDVOSB status for three years. The 
American Legion supports this, as a measure to improve and 
increase benefits bequeathed to veterans' spouses upon a 
veteran business-owner's death.
    And turning to the Transition Assistance Program, we have 
H.R. 4835, the Job TOOLS for Veterans Act. This bill would 
provide a new 5-year pilot program and establish 50 centers 
across the country to expand access to job resources and ensure 
the Department of Labor provides classes with job-training 
information.
    The American Legion supports this bill, but would be remiss 
not to share concerns on VA's top applications. In last week's 
budget testimony, the acting deputy Under Secretary for 
benefits shared that the 2019 budget request to cut $59.3 
million from the VR&E program due to favorable pricing of 
Transition Assistance Program contract.
    Notwithstanding the question of how precipitous of a drop 
this actually is, we were under the presumption that TAP had 
been moved to the Benefits Administration Service, not VR&E, 
and would appreciate clarification from the VA. It is in this 
context of questions that I would like to provide our feedback 
on these programs, along with today's release of the American 
Enterprise Institute's report on economic opportunity, 
transition assistance, and the 21st century veteran.
    With the incredible energy that this Subcommittee has 
invested into defining veteran success, I owe you The American 
Legion's unvarnished conclusion on the totality of these 
discussions. Programs designed to empower veterans' abilities 
will not reach their full potential under the aegis of an 
administration dedicated to documenting veterans' disabilities.
    What we risk with the status quo is an Economic Opportunity 
Office encumbered by the premise that it is just another 
benefits delivery system held to comparable standards, as 
disability compensation. And if we have learned one thing from 
all of our discussions over the past term, is that these 
programs have the potential to be so much more than benefits. 
With proper oversight, they can be true investments in the 
future of our country.
    In its limited time, the Office for Economic Opportunity 
has piloted and demonstrated success for many programs, from 
public-private partnerships for apprenticeships and employment, 
to the creation of VA for Vets and the Veterans Employment 
Services Office.
    VA's Center for Verification and Examination [sic] has 
grown exponentially and creates an extensive database of 
verified veteran-owned small businesses. But, so long as they 
remain--so long as they remain to claims backlog, they always 
complete for relevance and funding.
    The landscape of education benefits has evolved rapidly 
with the implementation of the Harry W. Colmery Veterans 
Educational Assistance Act. These improvements have been 
accelerated immensely by the research that Student Veterans of 
America has conducted on veterans' education--most recently 
with its national Veterans Education Success tracker.
    While their success is rightfully applauded, it should not 
be on the young VSO's back to prove the success of a VA program 
as monumental as the GI Bill. As the demands for the veterans' 
populations change, so must the agency that helps ensure their 
success. As our legislative director, Matt Shuman, shared last 
week, The American Legion believes it is the right--the time is 
right to consolidate VA's economic opportunity programs under 
an Under Secretary for Veterans Economic Opportunity and 
Transition.
    Chairman Arrington, Ranking Member O'Rourke, distinguished 
Members of this Committee, The American Legion appreciates the 
opportunity to comment on these subjects and I would be happy 
to answer any questions you have. Thank you.

    [The prepared statement of John M. Kamin appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Kamin for your testimony.
    Now, Ms. Haycock, we yield 5 minutes to you. Thank you for 
being here.

                 STATEMENT OF ASHLYNNE HAYCOCK

    Ms. Haycock. Chairman, Ranking Member, and distinguished 
Members of the Economic Opportunity Subcommittee, thank you for 
the opportunity to speak on behalf of surviving families of our 
Nation's fallen heroes.
    I am the surviving daughter of Army Sergeant First Class 
Jeffrey Haycock, who died in the line of duty in 2002 and Air 
Force veteran, Nicole Haycock, who died by suicide in 2011. In 
2010, I was one of the very first recipients of the Marine 
Gunnery Sergeant John Frye Scholarship, and for that 
opportunity, I am incredibly grateful to this Committee.
    TAPS would like to thank the Committee for all of the 
provisions in the Harry W. Colmery Veterans Educational 
Assistance Act that assisted our surviving families, such as 
Yellow Ribbon for Fry Scholarship recipients, the removal of 
the delimiting date for Fry-eligible spouses, and an increase 
in Chapter 35 educational benefits.
    We look forward to seeing these implemented in the coming 
months; however, with these improvements coming from the 
Forever GI Bill, we are concerned about potential delays in 
payments. That is part of the reason H.R. 4830, the 
Servicemembers Improved Transition through Reforms for Ensuring 
Progress Act, or SIT-REP, is so important to TAPS. And we are 
incredibly grateful to Representative Bilirakis for introducing 
it.
    We have already had situations where veterans and survivors 
were forced by many schools to take out student loans, sign up 
for payment plans they could not afford, or require to pay out-
of-pocket for tuition before the start of the term. These 
students did everything by the book. They applied for and 
received a certificate of eligibility. They provided that 
certificate of eligibility to the school- certifying official 
with proof of enrollment on time, yet, they were still 
penalized because of unfair institutional policies.
    One of these students, Weston, is enrolled at Montana State 
University. Because the VA paid--tuition payment had not 
arrived before the start of the semester, the school advised 
him to take out a student loan and repay it when the VA money 
arrived. They did not inform him that there would be thousands 
of dollars in initiation fees he had to pay back on top of the 
original loan amount. The VA money arrived when it was supposed 
to; four weeks after being certified by the school, but 
nevertheless, Weston was punished.
    Another student, Timothy, started his first semester at 
Blinn College in College Station, Texas, in January 2018. 
Timothy was raised by his grandparent after the loss of his 
father in the Army in 2004. He transferred to Blinn after his 
grandfather had some medical issues so he could be closer to 
home.
    Timothy provided Blinn with his COE the day he enrolled in 
classes, yet his grandparents were still forced to pay out-of-
pocket that day, while awaiting VA payment. This payment put 
such a strain on the family's finances that they were late on 
other bills that month.
    Then we have Eucenia (ph), a surviving spouse who is 
enrolled at a small, private university, Aurora College, in 
Illinois. Eucenia did not pay out-of-pocket or take out loans 
up front for her tuition, but because of when the VA payment 
arrived, she was forced to pay late fees on top of her 
constitution. When she confronted the school about it, they 
told her it was not their problem.
    These are just some of the examples we have heard. None of 
these examples came from delayed payments, just unfair 
institutional policies. Imagine how many more there could be if 
payments end up being delayed with the implementation of the 
changes from Forever GI Bill.
    SIT-REP does nothing more than make a certificate of 
eligibility a promise of payment. It prevents schools from 
punishing students using the Post-9/11 GI Bill, Fry 
Scholarship, and VocRehab for the complications of bureaucracy. 
It prevents military-connected students from taking out 
unnecessary student loans, incurring late fees, and being 
financially burdened by forcing them to pay out-of-pocket.
    These policies are already in place for students using 
Title IV funds, such as Pell Grants and Federal student loans. 
We view this as a straightforward common sense bill, just like 
the guaranteed in-state tuition laws passed in 2016 by this 
Committee.
    While TAPS' priority here today is H.R. 4830, we would also 
like to express our support for H.R. 1206 to assist with 
application fees; H.R. 3940, to assist veterans and survivors 
impacted by natural disasters, and the draft text to create a 
fourth administration for economic opportunity.
    We are, however, concerned with H.R. 3023, which eliminates 
reporting fees, as this does away with some of the important 
gains from Forever GI Bill.
    Veterans and survivors have already sacrificed so much for 
this country. Simplifying access to higher education for them 
is something we can easily document.
    Thank you for the opportunity to speak on this important 
issue, and I look forward to answering any questions that you 
may have.

    [The prepared statement of Ashlynne Haycock appears in the 
Appendix]

    Mr. Arrington. Thank you, Ms. Haycock.
    Now, Mr. Hubbard, I will yield 5 minutes for your remarks.

                  STATEMENT OF WILLIAM HUBBARD

    Mr. Hubbard. Chairman Arrington, Ranking Member O'Rourke, 
and Members of the Committee, thank you for inviting Student 
Veterans of America to submit our testimony on the pending 
legislation before this body today. With over 1500 chapters 
representing more than 700,000 veterans and schools across the 
country, we are pleased to share the perspective of those 
directly impacted by the subjects before this Committee.
    Many of the topics under consideration focus on the issues 
of transition, education, and employment. Before delving into 
these topics, we would like to address the ongoing situation 
with Ashford University. At this time, it is unclear what the 
Department of Veterans Affairs, in conjunction with the state-
approving agencies, intend to conclude regarding the case.
    At present, Ashford effectively has no current approval for 
GI Bill funds while the school continues to seek approval in 
several states, including Arizona and California. As the 
situation remains unclear, we support the intent of VA, at 
minimum, to stop new enrollments of GI Bill students until the 
situation is resolved.
    Historically, we have provided direct support to student 
veterans and their families who have been displaced from 
tenuous education situations. Resolving this situation as soon 
as possible is in the interest of students and all those 
involved.
    As Forever GI Bill implementation is ongoing, we recognize 
the constraints on the VA, the education service staff 
specifically, and we applaud Director Rob Worley and his team 
for the incredible commitment to the implementation of this 
historic legislation, as well as the other economic opportunity 
programs. Our full review of the legislation appears in our 
written testimony.
    VA has stated, ``Economic competitiveness is not just about 
employment; it encompasses overall employment, wealth, 
independent living, housing, career mobility, and educational 
attainment.''
    Economic opportunity, being a stated priority, we propose 
the establishment of a veterans economic opportunity 
administration at VA, including the creation of a new political 
appointment for an Under Secretary of veterans economic 
opportunity. Responsibilities would be include the 
administration of the home loan, Vocational Rehabilitation and 
Employment, or VR&E, education assistance programs, and 
transition issues.
    This proposal would have a laundry list of much-needed 
outcomes. First, it increases accountability. As of this 
hearing, it has been 886 days since VA last had a permanent 
Under Secretary of benefits. As of today, VA has no permanent 
leadership overseeing these important issues.
    Second, it elevates economic opportunity for veterans. It 
is directly relevant to President Trump's Executive Order 
13822, supporting our veterans during their transition from 
uniformed services to civilian life. This proposal supports the 
importance of transition, education, employment, and well-
being.
    Third, it reduces bureaucracy, which has historically led 
to serious national challenges. Keeping economic opportunity 
issues buried at the bottom of the Veterans Benefits 
Administration is not the answer. As of last week's budget 
hearing, the lack of a clear response on several basic 
questions regarding multiple economic opportunity programs at 
VA was a direct result of a structure not functioning to 
benefit the end-user.
    Take a look at the current structure. It is no wonder that 
economic opportunity programs are taking a backseat at VA, and 
that is just one lane within VA. At the bottom you will see GI 
Bill listed. It is pretty clear that this is not a structure 
that is set up to support the veteran.
    Fourth, it establishes a counterpart for the Departments of 
Defense and Labor. Presently, these Departments lack a direct 
Under Secretary counterpart within VA and any significant 
initiative must achieve multiple layers of approval before 
moving ahead.
    Fifth, it supports whole health. A tragically elastic 
narrative exists around veterans as either broken or damaged. 
In reality, the vast majority of veterans are much like many 
Americans: hard-working, community-oriented neighbors who want 
what is best for their families.
    Unfortunately, programs that support the whole health of 
veterans are not reaching their full potential under this 
current structure at VA. Disappointingly, it appears that the 
maintenance of the bureaucracy is the chief concern for those 
who are opposing this proposal; placing an emphasis on 
preserving the way things are for the sake of doing so versus 
the prioritization of the customer, veterans.
    A long list of traditional and Post-9/11 military and 
veteran service organizations have supported this concept in 
the past and continue to do so today. Future generations of 
veterans are counting on the success of this proposal and we're 
eager to work with this Congress, the president, and all others 
in making this a reality.
    I will leave you with this quote, ``The Nation that makes a 
great distinction between its scholars and its warriors will 
have its thinking done by cowards and its fighting done by 
fools.''
    Thank you, Mr. Chairman, Ranking Member, and Members of the 
Committee, for making the success of student veterans and their 
families a top priority in this Congress.

    [The prepared statement of William Hubbard appears in the 
Appendix]

    Mr. Arrington. Thank you, Mr. Hubbard for your passion for 
our veterans, especially our student veterans, and it is always 
good to see you.
    Now, I am going to begin our Committee remarks and 
questions with my Ranking Member, Mr. O'Rourke. I yield 5 
minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Kamin, you had a specific question. You had some 
uncertainty, I believe on the TAPS program. You wanted a 
clarification--do you want to re-ask the question and allow Mr. 
Worley to answer.
    Mr. Kamin. Yes, thank you, sir. The question related to in 
the hearing and also in the budget request for fiscal year 
2019, it was mentioned that VR&E, in terms of where the budget 
was dropped, the rationale for that was that a new TAP contract 
could deliver better outcomes at a cheaper price. The question 
we have is, what--how--why would a TAP contract have anything 
to do with VR&E, because TAP is under the BAS office, so we 
want to know how that math was crunched to do that.
    Mr. O'Rourke. Okay. General Worley, any light on that?
    Mr. Worley. I can't shed any light on that, Ranking Member 
O'Rourke. That is--we can certainly take that back and try to 
answer that question.
    It is true the TAP program is managed under the Benefits 
Assistance Service--
    Mr. O'Rourke. Yeah.
    Mr. Worley [continued]. --and so, that is all I can share 
at this point.
    Mr. O'Rourke. And just since we have everyone at the same 
table, the question brought up about Ashford College, by Mr. 
Hubbard, anything you can say about that?
    Mr. Worley. I can share a couple of things about the status 
of Ashford University. As you may know, there is a--Ashford 
filed suit against the VA and so, there is ongoing litigation 
in Federal court, so there is probably not a huge amount I can 
say. But it is true that they, through the legal interactions, 
Ashford did apply for approval in the correct state of 
jurisdiction, which is California. They do have, they would 
argue, an approval status in Arizona and in Iowa, for that 
matter.
    It is a good time to point out that state approving 
agencies approve programs of education for GI Bill benefits, 
not the VA, and so California has essentially decided not to 
act on that approval, which is tantamount to denying the 
approval and the VA is currently reviewing--we--and reviewing 
all the approval documentation to determine the appropriateness 
of California's action under our contract with them and whether 
Ashford acted in good faith in pursuing that approval.
    Mr. O'Rourke. Let me ask you one more question. Mr. Poe's 
legislation to assist those veterans who are living in places 
like Houston who are still trying to obtain their earned 
education benefit, despite living through a natural disaster, 
perhaps their schools closed down, you had two concerns. One 
was disparate treatment and you said I--we will need some 
clarifications. Anything that we can resolve today, as long as 
we have all parties at the table?
    Mr. Worley. Well, we noted that the bill only applies to 
Post-9/11 GI Bill, so there are 5 other benefit programs that 
we administer.
    Mr. O'Rourke. Could we open it to all 5, and your concern 
would be eliminated?
    Mr. Worley. I think they would be subject to the same 
weather and potential closure issues, so if you open it up--
    Mr. O'Rourke. Yeah.
    Mr. Worley [continued]. --that would be helpful.
    It was unclear, with respect to in between terms, whether 
this would apply in between terms of education. And there was 
also a concern related to the books and supplies, because the 
way we pay it now is a flat rate, $1,000 a year maximum. The 
way this language reads is there is really no maximum, no cap. 
It is pay for whatever is required.
    So, we would suggest that there be a cap or something 
similar to what is in place with the normal program.
    Mr. O'Rourke. Yeah, and I don't know if Mr. Poe's team is 
still here or if they are watching, but I would love to work 
with his office and you and see if we can't resolve those 
concerns and get the support of the administration, because I 
think all of us want to do this. The intent is the right one 
and the concerns that you have seem legitimate.
    We want to make sure there is not disparate treatment and 
every earned beneficiary is able to get this help.
    Mr. Worley. Right. Absolutely.
    Mr. O'Rourke. So, it seems very reasonable.
    Okay. So, I will ask my team to work with Judge Poe's 
team--
    Mr. Worley. I would be happy to work with the Committee on 
that.
    Mr. O'Rourke [continued]. --and the VA, and I will yield 
back to the chair.
    Mr. Arrington. I thank the Ranking Member. I second his 
comments on Mr. Poe's legislative proposal and hope we can find 
the technical remedies for--that would address those concerns 
so we can move it forward.
    And Mr. Rutherford, from the Great State of Florida, I 
yield 5 minutes for your questions. And by the way, they called 
the votes, so we got the 15-minute mark. I am going to stay 
behind and wrap up, but you guys can question.
    Mr. Rutherford. Thank you, Mr. Chairman. I appreciate that, 
and I will be very quick. I just had a couple quick questions.
    The American Legion supports the 1206, Reducing Barriers 
for Veterans Education Act of 2017. This authorizes the GI Bill 
funding to be used to pay for college application fees. But 
does anyone know--General, maybe you do--how many veterans 
actually expend all of their GI Bill dollars? Do we know what 
percentage?
    Mr. Worley. It is a very small percentage. I don't know the 
level of fidelity of our data, but it is in the low single 
digits, as we understand it today.
    Mr. Rutherford. Okay. So, this would be, probably, a full 
increase in expenditure, because you are actually adding 
dollars--
    Mr. Worley. Correct. There would--and I apologize, we don't 
have the approved views and costs for that, but we will have 
that shortly to be able to provide to the Committee.
    Mr. Rutherford. Okay. Very good.
    And then, finally, on 3023, do we know of any other 
organization that pays for processing to a college? I mean, it 
seems to me that that is in there--that that would be in the 
college admissions, covered by their fees and other charges 
within their credit hours.
    Mr. Worley. I appreciate the opportunity to address that, 
Congressman. And while we don't have the official views on that 
particular--you are talking about the reporting fee?
    Mr. Rutherford. Correct.
    Mr. Worley. I just want to clarify what those fees are for. 
Those are authorized and those are based on the number of 
active beneficiaries at a particular school. And the purpose of 
those fees are to support the school's certifying officials or 
other costs, whether it be reporting to the VA or other--and 
that is why they are called ``reporting fees''--and what they 
do is help defray some of the costs that the school incurs by 
being a GI Bill-approved school.
    In many cases, those funds support the school's certifying 
officials attending training conferences, which is a hugely 
valuable way to use that money. So, really, those fees are used 
for those kinds of things in support of the veterans program at 
the school and in training with the VA--
    Mr. Rutherford. Okay.
    Mr. Worley [continued]. --and the state approving agencies, 
as well.
    Mr. Rutherford. Anyone on the panel aware of any other 
organization that gets reporting, but doesn't pay for it?
    Mr. Kamin. Sir, I am not aware, but I think there is a 
unique history when it comes down to reporting fees. Prior to 
1976, the people who certified veterans were actually employed 
by the VA; somebody who ensured they were on campus and they 
were going to class--
    Mr. Rutherford. Right.
    Mr. Kamin [continued]. --and we still see the vestiges of 
that exist today through the VocRehab program; that is a VA 
staffer who is certifying--they check in on you--all right, 
great, here's your payment.
    After 1976 with the proliferation of the Vietnam-era GI 
Bill and some other people on campuses, reporting fees were 
instituted to defray costs, so it was a way to cut down on the 
burgeoning staff with the VA by saying, all right, schools, if 
you can take care of this, we will reimburse you for $7 of the 
time. Since that time, it has gone up to $16 and the schools--
and with the Forever GI Bill, we have actually earmarked those 
to say these--the money that you are getting needs to go 
directly back into the certifying official budget for training 
purposes and things of that nature. So, it is definitely a 
little bit odd, but--
    Mr. Rutherford. Yeah, okay. Thank you.
    I yield back.
    Mr. Arrington. Thank you, Mr. Rutherford.
    Let me follow up on--or follow on some of your questions. 
And, again, guys, feel free to go; they have called the votes.
    But, as a former administrator in a higher-education 
institution, I am always curious about these fees. The 
universities benefit greatly from the GI Bill benefits, the 
full tuition and fees. They build into that, their operating 
costs, their overhead.
    And I am just having a hard time figuring out why they 
would need an additional $16 fee. Let me ask you, do you know 
that the Federal student assistance programs in Department of 
Education, Title IV programs, do they also come with an 
additional reporting fee?
    Does--do you--General Worley, maybe you are the best to 
answer?
    Mr. Worley. I'm sorry, I don't know, Mr. Chairman. I don't 
know if they--
    Mr. Arrington. I don't recall that they have an additional 
offsetting assistance to the university, and in this case--in 
that case, I'm not sure that they are getting the full freight. 
I think the GI Bill is much more valuable to the university.
    So, it may be an oddity in my view, but, again, I haven't 
done a lot of due diligence. And it seems to me, again, the 
incentive for the institution is to recruit and support 
veterans because they are all about, you know, the students but 
also the revenue that follows. And I just don't know why you 
would need the $16 reporting--I am calling it ``fee,'' but 
support from the Federal Government, from the VA, from the 
taxpayer.
    Any comments, Will, on that? Or anybody on the panel want 
to comment?
    Mr. Hubbard. Yes, thank you, Mr. Chairman.
    So, our strong position is that we believe that the schools 
should continue to get the fee. I think, however, schools are 
making the wrong argument. They are not demonstrating the 
return on investment with this fee.
    And with the Forever GI Bill, we had to specify what these 
fees needed to be used for, which, in and of itself, I think, 
demonstrates a cultural challenge. Schools, typically, were 
taking this funding and rolling it to a general operating fund, 
which is not what it was intended for.
    And I think if they could demonstrate the value of what 
these fees are providing, for example, allowing them to more 
effectively and efficiently recruit student veterans to their 
universities, I think that would be a strong case and would 
allow us to understand it better.
    Mr. Arrington. See, I think performance-based funding is 
actually where I would like to go, just to be very transparent. 
And it gets at a lot of my colleagues who aren't here that 
expressed--especially Mr. Takano, his concerns, and I think 
legitimate concerns, about predatory practices and some 
institutions that might be taking advantage of our veterans.
    Again, I think, not only should we--once you get the full 
tuition and fee, which is a heck of a deal for a university, I 
think the university should compete and compete by building 
into their service, support services for our veterans and 
anything else that will allow the veterans to benefit from--let 
that market--unleash that and I think you will have folks 
bending over backwards to get our veterans and to support them 
as non-traditional students. So, I would actually go the 
opposite direction on this.
    But the Messer H.R. 1206, his proposal, I would like your 
thought on that as well, Mr. Hubbard, but anybody can comment. 
It seems to me like if somebody want to use their 36 month of 
tuition and fees and draw that down and use those resources for 
application fees and maybe accelerate that you are track to 
graduating, that is an option and I am all for options and 
choices for our veterans.
    They are responsible. I don't know another community more 
responsible to make that decision. Why shouldn't we give them 
the freedom and the choice to do that?
    Mr. Hubbard. It is an excellent point, Mr. Chairman. I 
mean, I strongly believe, and as an organization, we have seen 
instances where there are barriers for student veterans to 
apply to schools. Any time we can reduce those barriers, as the 
name indicates, all the better.
    If it is a small, $90 to $100 fee that is preventing 
somebody from going to school, because the reality is when you 
are an E2 or E3, I mean, that is significant money if you have 
a family to feed and you are trying to cover the cost of bills. 
I mean, that is not insignificant to those individuals.
    So, I think taking the opportunity and allowing those 
individuals the opportunity to go to school, all the better. We 
fully support this.
    Mr. Arrington. My last question and then we will close--and 
by the way, Ms. Haycock, thank you for your family's sacrifice 
for our country; we are so grateful.
    And to the line of questions and comments that you had on 
Mr. Bilirakis' legislative proposal H.R. 4830, Mr. Worley, I 
recall that your processing times were pretty good; like 6 days 
on average, maybe for supplemental--20-plus days--I think 22, 
24 days, maybe, on original; is that correct? Do I recall 
accurately?
    Mr. Worley. You have got a good memory, but that was before 
the peak season we just went through.
    The fiscal year-to-date numbers right now are about 22 days 
for originals and 12 days for supplementals.
    Mr. Arrington. Okay.
    Mr. Worley. That goes up a little bit during peak season 
and now it is coming back down.
    Mr. Arrington. Okay. The forever GI Bill, you all have to 
make a lot of accommodations and adjustments in your systems 
and your overall operation to implement it and to execute on it 
and make sure that there aren't the delays. Obviously, with 
your average time, it would be an outlier to make the 90-day 
window that is the solution that Bilirakis is introducing.
    Do you--how do you feel about where you are in terms of the 
ability to efficiently and effectively execute and implement 
the GI Bill, the Forever GI Bill?
    Mr. Worley. Mr. Chairman, we are working very, very hard to 
make sure that there aren't the delays that have been expressed 
here, especially in terms of, 1 August 2018, when there are 17 
more provisions that go into effect.
    The--so, I am--overall, I am feeling pretty good. We have 
got the IT work going on that will handle the most critical 
things, as we have testified before with respect to housing. We 
are well under way with the planning for the vet tech and the 
things that happen a little bit later.
    But it is true, where we don't have the IT ready on 1 
August of 2018, we are going to have either workarounds or 
procedural advisories or those kinds of things. Those are being 
designed now. We will be doing the training and we will put 
those into effect.
    And we have more people coming in, as well, so we will have 
about 200 additional folks to help make sure we try to maintain 
the timeliness we enjoy today.
    Mr. Arrington. I think the Ranking Member's ride is here, 
so I am going to wrap up.
    So, do you think it is a good stop-gap measure to have that 
90-day Bilirakis solution?
    Mr. O'Rourke. Yes or no question.
    Mr. Worley. Yes.
    Mr. Arrington. Good. I ask unanimous consent--that was a 
subtle hint--that written statements from Rep Chabot of Ohio, 
the Department of Labor, the National Association of State 
Approving Agencies, and the National Association of Veterans 
Programs' Administrators be included in the hearing record; 
without objection, so ordered.
    Finally, I ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material on any of the bills under consideration 
this afternoon.
    Without objection, so ordered. The hearing is now 
adjourned.

    [Whereupon, at 3:32 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Robert Worley
    Good morning, Mr. Chairman, Ranking Member O'Rourke, and other 
Members of the Subcommittee. I am pleased to be here today to provide 
the views of the Department of Veterans Affairs (VA) on pending 
legislation, including H.R. 3940, H.R. 4451, H.R. 4830, H.R. 4835, H.R. 
5044, and a draft Home Loan bill. Because of the timing of receipt of 
two of the bills, we are not able to provide formal views in this 
statement on H.R. 1206, Reducing Barriers for Veterans Education Act of 
2017 and H.R. 3023, to eliminate the authority of the Secretary of 
Veterans Affairs to pay reporting fees to educational institutions, but 
will follow up with the Committee soon, on these two bills. With me 
today are Mr. Jeffrey London, Director, Loan Guaranty Service, and Mr. 
Tom Leney, Executive Director, Small and Veteran Business Programs, 
Office of Small and Disadvantaged Business Utilization.

H.R. 3940

    H.R. 3940, the ``Veterans Education Disaster Assistance Act,'' 
would amend section 3313 of title 38, United States Code (U.S.C.), to 
add a new subsection (k) requiring the VA Secretary to pay a monthly 
stipend to an individual pursuing a course of education at an 
institution of higher learning (IHL) using educational assistance under 
38 U.S.C. chapter 33, if that individual is forced to discontinue 
pursuing such course because of the closure of an IHL by reason of a 
natural disaster and the individual opts to pursue that course or an 
alternative course of education solely by distance learning. The 
monthly stipend that the VA Secretary would pay would be the amount to 
which the individual would be entitled were the individual pursuing the 
course of education at the IHL. New subsection (k) would also require 
the Secretary to pay an additional lump sum amount for any books, 
supplies, equipment, and other educational costs necessary by reason of 
pursuing the course or an alternative course of education solely by 
distance learning. The Secretary would pay the monthly stipend only for 
the period of time necessary to complete the quarter, semester, term or 
academic period during which the school closure occurs or 4 months, 
whichever is shorter. Moreover, the Secretary would only pay the 
monthly stipend to an individual when an IHL closes by reason of a 
natural disaster for a period of time that the institution confirms 
will last for 4 weeks or longer or that the institution describes as 
indefinite and that endures for a period of 4 weeks or longer. No 
additional charge would be made to entitlement by reason of a payment 
under subsection (k).
    VA supports the intent of this bill to provide additional support 
to Post-9/11 GI Bill beneficiaries during school closures caused by 
natural disasters; however, VA has serious concerns with certain 
aspects of the bill.
    By amending chapter 33, the bill would apply only to Post-9/11 GI 
Bill beneficiaries, creating disparity between these beneficiaries and 
beneficiaries using other benefits, such as the Survivors' and 
Dependents' Educational Assistance program benefits under chapter 35.
    Section 3680(a) of title 38, U.S.C., authorizes VA to continue 
paying allowances for a student's ``enrollment in, and pursuit of'' a 
program of education during a temporary school closure caused by an 
emergency situation. The bill is not clear as to whether VA would be 
required to pay students who are between terms at the time of the 
closure. Also, specific language should be included to indicate whether 
VA would be required to pay the monthly stipend to the same students it 
pays under section 3680(a).
    Under 38 U.S.C. Sec.  3313(c)(1)(B)(iv), VA pays a ``lump sum 
amount for books, supplies, equipment, and other educational costs'' 
subject to a $1,000 cap. VA does not currently take into account the 
actual costs of books, supplies, and equipment, but determines the 
appropriate amount by pro-rating the maximum annual amount of $1,000 
per academic year based on the student's rate of pursuit per semester 
or term (VA pays the student $41.67 per credit hour, which is $1,000 
divided by 24 credit hours, which is the annual credit load for a full-
time, semester-based student). In contrast, proposed section 
3313(k)(1)(B) would require VA to pay for ``necessary'' books, 
supplies, equipment and other educational costs and does not include a 
cap. VA interprets the bill to require a direct-cost reimbursement for 
actual expenses without any capped maximum amount, which would be 
challenging for several reasons. VA does not currently pay GI Bill 
beneficiaries directly for the reimbursement of the actual cost of 
books, supplies, and equipment. Changes would be required to the Long 
Term Solution system to process payment of this benefit. In addition, 
because the bill would not impose a maximum benefit amount or otherwise 
limit what equipment and educational costs can be included, VA cannot 
estimate the potential cost. Therefore, we recommend including a 
maximum annual amount pro-rated based on a student's academic rate of 
pursuit or an authority to exceed the current cap amount by some 
statutory formula rather than a direct-cost reimbursement.
    School closure is described in proposed section 3313(k)(4) as one 
that is either confirmed by the institution to last 4 weeks or longer 
or is described by the institution as indefinite and actually does last 
for 4 weeks or longer. However, the bill provides no guidance as to 
what happens if a closure that is described as indefinite does not last 
for 4 weeks and the school reopens prior to the 4 weeks. We also note 
that a school closure could detrimentally affect eligible individuals 
through non-natural causes as well, and a major disaster can also be 
declared as a result of a fire, flood, or explosion regardless of 
cause. (See Stafford Act Sec.  102(2) (41 U.S.C. 5122(2))). We would be 
happy to work with the Committee on drafting language to address these 
issues, including whether they'd like to expand assistance for non-
natural disasters.

H.R. 4451

    H.R. 4451, the ``Homeless Veterans' Reintegration Programs 
Reauthorization Act of 2017,'' would extend the authorization of 
appropriations for the Department of Labor's Homeless Veteran 
Reintegration Programs (HVRP) and the Homeless Women Veterans and 
Homeless Veterans with Children Reintegration Grant Program from 2017 
to 2022. The bill would further expand the population eligible to 
receive services under HVRP to include not only homeless Veterans, but 
also Veterans who are participating in the Department of Housing and 
Urban Development-VA Supportive Housing program, receiving assistance 
under the Native American Housing Assistance and Self-Determination Act 
of 1996, transitioning from incarceration, or participating in the VA 
rapid rehousing and prevention program authorized in 38 U.S.C. Sec.  
2044.
    VA defers to the Department of Labor for views and costs on H.R. 
4451; however, we offer that this bill would provide additional 
services for homeless and at-risk Veterans in the critical area of 
employment, which is a key factor in achieving and maintaining 
stability in permanent housing. Veterans transitioning from 
incarceration often face multiple barriers to successful reentry, and 
expanding HVRP eligibility to this population would help address the 
employment-related needs of a population of Veterans who are often at 
high risk of becoming homeless. It would also be especially helpful for 
Veterans transitioning from incarceration who may not be eligible for 
VA services. We also note, as a technical matter, that 38 U.S.C. 
Sec. Sec.  2021(e)(1)(F) and 2021A(f)(1), were already extended through 
2018 by sections 301 and 302 of Public Law 115-62, the Department of 
Veterans Affairs Expiring Authorities Act of 2017.

H.R. 4830

    H.R. 4830, the ``Servicemembers Improved Transition through Reforms 
for Ensuring Progress Act'' or the ``SIT-REP Act,'' would amend 38 
U.S.C. Sec.  3679 by adding a new subsection (e) that would require a 
State Approving Agency (SAA), or the Secretary when acting as an SAA, 
to disapprove certain courses of education unless an educational 
institution has adopted certain policies. Beginning on August 1, 2018, 
in order to avoid disapproval of a course of education, an educational 
institution would have to have a policy in place that allows a covered 
individual to attend or participate in a course of education if the 
individual provides a certificate of eligibility for entitlement to 
educational assistance under chapter 30, 31, 33 or 35. The policy would 
have to permit any covered individual to attend or participate in the 
course of education beginning on the date the individual provides the 
certificate of eligibility until the earlier of the date VA provides 
payment to the educational institution or 90 days after the date the 
individual provides the certificate of eligibility.
    In addition, the educational institution would also have to adopt a 
policy not to impose any penalty, including the assessment of late 
fees, deny access to classes, libraries, or other institutional 
facilities, or require a covered individual to borrow additional funds, 
if the individual cannot meet his or her financial obligations to the 
institution because of delayed payments for educational assistance from 
VA. In addition, the bill would allow the Secretary to waive any of 
these requirements. A covered individual is defined as any individual 
who is entitled to educational assistance under chapter 30, 31, 33, or 
35 of title 38, U.S.C.
    VA supports the bill, but has concerns. The proposed legislation 
would allow a covered individual to attend school beginning on the date 
the individual provides a certificate of eligibility until the earlier 
of the date VA provides payment for the course of education to the 
educational institution or 90 days after the individual provides a 
certificate of eligibility. Under chapters 31 and 33, VA issues 
payments for tuition and fees directly to the school on behalf of the 
student. However, VA issues a monthly benefit payment directly to the 
student for individuals eligible for educational assistance under 
chapters 30 and 35. As such, VA is not responsible for the tuition and 
fees paid to the educational institution for the individual's 
attendance in any specific course under these programs. Consequently, 
as currently written, individuals entitled to assistance under chapters 
30 and 35 would always be permitted to attend for 90 days, regardless 
of when VA begins issuing benefit payments, in order for the 
institution to avoid program disapproval.
    Benefit costs or savings that would be associated with this bill 
have not yet been determined.

H.R. 4835

    H.R. 4835, the ``Job Training through Off-Base Opportunities and 
Local Support for Veterans Act'' or the ``Job TOOLS for Veterans Act,'' 
would extend the pilot program for off-base transition training for 
Veterans and spouses, as established under the Dignified Burial and 
Other Veterans' Benefits Improvement Act of 2012, Pub. L. No. 112-260, 
Sec.  301 (10 U.S.C. Sec.  1144 note). VA defers to the Department of 
Labor on this bill.

H.R. 5044

    H.R. 5044, the ``Service-Disabled Veterans Small Business 
Continuation Act,'' would add a new sentence to 38 U.S.C. Sec.  
8127(k)(3) stating that a surviving spouse of a Veteran whose 
disability rating was less than 100 percent shall be treated as a 
covered surviving spouse for purposes of VA contracting goals and 
preferences for a period of up to 3 years. While VA supports the intent 
of this bill, changes must be made before VA can support the bill. The 
National Defense Authorization Act for Fiscal Year (FY) 2017 (the 
``2017 NDAA''), once effective, will amend the relevant provisions in 
38 U.S.C. Sec.  8127 to mirror those set forth in section 3(q) of the 
Small Business Act (15 U.S.C. Sec.  632(q)). Accordingly, VA recommends 
that the proposed amendment be incorporated into section 3(q) of the 
Small Business Act (15 U.S.C. Sec.  632(q)). Given the language of the 
2017 NDAA, any change to the Small Business Act would automatically 
apply to 38 U.S.C. Sec.  8127 and maintain a uniform definition of the 
relevant terms.
    VA is strongly in favor of creating unified ownership and control 
provisions for Veteran-owned businesses; and the movement of these 
criteria from 38 U.S.C. Sec.  8127 to the Small Business Act helps to 
bring that to fruition. Making changes only to 38 U.S.C. Sec.  8127 
would create disparate criteria for the VA and Small Business 
Administration (SBA) set-aside programs. To preclude such disparate 
criteria and ensure a single, Government-wide rule, the 2017 NDAA will 
additionally prohibit VA from promulgating its own new regulations 
related to the status of a concern as a small business concern by 
requiring VA to follow SBA regulations. Accordingly, though the bill 
would amend 38 U.S.C. Sec.  8127, other provisions of that statute, as 
amended by the 2017 NDAA, would preclude VA from issuing regulations to 
implement this statutory change.
    There would be minimal or no costs associated with this bill.

Draft Home Loan Bill

    This draft bill, the ``VA Home Loan Improvement Act of 2018,'' 
would make various changes to VA's Home Loan program.
    Section 2(a) of the bill would amend 38 U.S.C. Sec.  3703(a)(1) to 
adjust the maximum guaranty amount under VA's Home Loan program. Under 
current law, the maximum guaranty amount is calculated as a percentage 
of the Freddie Mac conforming loan limit. Since lenders require VA's 
guaranty to cover at least 25 percent of the loan amount before they 
will make a loan, VA-guaranteed loans are effectively capped at the 
Freddie Mac conforming loan limit, which varies by location. This 
legislation would eliminate the effective cap and make the maximum 
guaranty amount 25 percent of the loan amount, subject to previously 
used entitlement.
    The current effective loan limit prevents otherwise qualified 
Veterans from taking full advantage of VA-guaranteed home loans on 
high-cost properties and requires complicated calculations to determine 
the maximum guaranty amount. This draft bill would make the full VA 
home loan benefit available to more Veterans and simplify the maximum 
guaranty calculation for both Veterans and lenders. The no-down payment 
requirement has been a cornerstone of VA's Home Loan program and 
provides an incentive for Veterans to choose VA's home loan product. 
However, under current law, a Veteran who elects to purchase a home for 
an amount that exceeds the Freddie Mac conforming loan limit is 
required to make a down payment for the loan amount borrowed in excess 
of such limit. This is because lenders generally expect VA's guaranty 
to be an amount that is at least 25 percent of the loan. If it is not, 
lenders require Veterans to make a down payment to cover the 
difference. By removing the effective cap, the law would allow more 
Veterans to utilize the home loan benefit they have earned without a 
down payment, while still requiring that they have satisfactory credit 
and income to qualify for the loan.
    However, due to the limitations of VA's loan data and the various 
interactions with other Federal programs, VA estimates the costs of 
section 2(a) could be tens of millions of dollars (or more) and vary by 
orders of magnitude due to factors such as take-up rates and funding 
fee collections. Given the uncertainty of the budgetary impacts, VA 
cannot support section 2(a) at this time.
    Section 2(b) of the bill would amend 38 U.S.C. Sec.  3729(c) to 
change the exemptions permitted with regard to VA's statutory loan fee. 
VA is required generally, pursuant to section 3729, to charge borrowers 
a statutory loan fee for obtaining a VA-guaranteed loan. Under section 
3729(c), certain borrowers with service-connected disabilities, and 
certain surviving spouses of such borrowers, are exempt from having to 
pay the fee. The bill would amend section 3729(c) to state that the 
loan-fee exemption currently available under section 3729(c)(1) ``shall 
not apply to any Veteran with a service-connected disability rated as 
total, or any surviving spouse of such a Veteran, who, after October 1, 
2018, receives a loan that is guaranteed under section 3710 of this 
title in an amount that is more than 25 percent of the Freddie Mac 
conforming loan limit limitation.'' Due to the way this provision is 
drafted, it is unclear to VA which Veterans Congress intends to exempt 
from paying the loan fee. VA welcomes the opportunity to work with the 
Committee to ensure that section 2(b) of the bill would achieve the 
Committee's intended outcome.
    VA notes that lenders will need a transitional period to 
incorporate any changes into their systems, processes and procedures. 
VA may also need to establish policy guidance and conduct rulemaking, 
to ensure proper loan processing and calculation of available 
entitlement, in line with the bill's proposed amendments. VA cannot 
estimate the benefit costs or savings that would be associated with 
enactment of section 2(b) of this bill.
    Section 3 of the bill would amend section 38 U.S.C. Sec.  3731(b) 
by adding a new paragraph (3) to authorize VA-designated appraisers to 
rely solely on information provided by third parties when valuing 
properties for VA's Home Loan program. VA supports enactment of section 
3, as it would enable VA-designated appraisers to expand their coverage 
areas and would increase the number of appraisals they could perform in 
a timely manner.
    The bill would not change the qualifications for VA-designated 
appraisers, nor would it make any substantial change to VA oversight 
requirements. It would, however, better align VA appraisal policy and 
procedures with industry standards, address recent industry concerns 
regarding timely delivery of the VA appraisal product, and likely 
encourage more use of the VA Home Loan program by making VA financing a 
more attractive option within the mortgage industry.
    VA estimates that there would be no benefit costs or savings 
associated with enactment of section 3 of this bill.
    This concludes my testimony. We appreciate the opportunity to 
present our views on these bills and look forward to answering any 
questions the Committee may have.
                                 <F-dash>
                    Prepared Statement of John Kamin
    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of the Subcommittee; On behalf of our National Commander, 
Denise H. Rohan, and the over 2 million members of The American Legion, 
we thank you for the opportunity to testify regarding The American 
Legion's positions on pending legislation before this Committee. 
Established in 1919, and being the largest veteran service organization 
in the United States with a myriad of programs supporting veterans, we 
appreciate the Subcommittee focusing on these critical issues that will 
affect veterans and their families.

H.R.1206 - Reducing Barriers for Veterans Education Act of 2017

    To amend title 38, United States Code, to include the cost of 
applying to an institution of higher learning as part of the benefits 
provided under the Post-9/11 Educational Assistance Program.
    While the Post-9/11 GI Bill provides important educational 
benefits, the cost of applications to colleges, graduate schools, and 
technical and vocational schools are not covered. H.R. 1206, the 
Reducing Barriers for Veterans Education Act of 2017, would allow the 
Post-9/11 GI Bill to cover up to $750 for applications to colleges, 
universities, graduate schools, as well as technical and vocational 
schools.
    This is a valuable addition, especially for graduating student 
veterans who seek to continue their studies at the next degree level. 
Improving the GI Bill to cover application costs will provide veterans 
greater opportunity to help them transition from serving our country to 
earning a degree.
    The American Legion is concerned that the use of this provision for 
veterans already enrolled in institutions would be an imprudent use of 
an entire month of GI Bill eligibility. If a veteran enrolled at a 
community college sends applications to institutions on four separate 
months over a semester, an additional four months of entitlement would 
be deducted on top of the months charged for enrollment. Under this 
example, the veteran would stand to lose over 10% of their total GI 
Bill eligibility months over application fees that would likely cost no 
more than $500.
    Fortunately, the improvements made to entitlement charges for 
licensure and certification in Section 107 of the Harry W. Colmery 
Veterans Educational Assistance Act offer a blueprint on how to 
incorporate these fees. By inserting language that would pro-rate the 
actual amount of application fees relative to the rate of one month 
payable, this proposal can optimize GI Bill usage to provide greater 
flexibility to students who wish to continue their studies.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education 
supports any legislative proposal that improves education benefits so 
servicemembers, veterans, and their families can maximize its usage. 
\1\
---------------------------------------------------------------------------
    \1\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------
    The American Legion supports HR. 1206, but requests that an 
additional amendment be made to pro-rate charges to entitlement based 
on the actual amount of fees charged.

H.R. 3023

    To amend title 38, United States Code, to eliminate the authority 
of the Secretary of Veterans Affairs to pay reporting fees to 
educational institutions.
    H.R. 3023 would eliminate the authority of the Secretary of 
Veterans Affairs to pay reporting fees to educational institutions, 
under the premise of cutting cost and government waste. This proposal 
presents an unfortunate lack of understanding of both GI Bill oversight 
and taxpayer stewardship.
    Annual reporting fees originated as a Department of Veterans 
Affairs (VA) cost saving initiative, and continue to operate as such. 
Prior to 1976, the VA employed staff at institutions of higher learning 
(IHLs) to report enrollments of veterans and their dependents accessing 
education benefits. After 1976, IHLs began receiving compensation for 
performing this function at a fee of $7 per student, eliminating 
burgeoning VA overhead that accompanied implementation of the Vietnam 
Era Veterans' Readjustment Assistance Act of 1974. In addition to 
having the net-effect of cutting the VA's budget, reporting fees ensure 
correct processing of GI Bill benefits by developing informed 
administrative staff at IHLs.
    As the administrative requirements have grown with increasingly 
sophisticated GI Bill improvements, the need for greater institutional 
oversight has grown. A 2015 GAO report identified $416 million in Post-
9/11 GI Bill overpayments in fiscal year 2014. \2\ These overpayments 
can result in a substantial loss of taxpayer dollars if not recovered, 
and create financial hardships for veterans.
---------------------------------------------------------------------------
    \2\ https://www.gao.gov/products/GAO-16-42
---------------------------------------------------------------------------
    It is this history of veterans education processing - from the 
Vietnam-era GI Bill to the GAO report - that underlines the necessity 
for effective reporting fees. This history informed Sections 113 and 
114 of the Harry W. Colmery Veterans Educational Assistance Act, which 
increased reporting fees to $16 and mandated training for school 
certifying officials. Torpedoing these improvements is misguided and 
fiscally irresponsible, resulting in veterans, the Department of 
Veterans Affairs and American taxpayers bearing the damage.
    Resolution No. 333: Support Increase in Reporting Fees for 
Educational Institutions supports the continuation of reporting fees at 
the rate of $16 per student veteran enrolled. \3\
---------------------------------------------------------------------------
    \3\ The American Legion Resolution No. 333 (2016): Support Increase 
in Reporting Fees for Educational Institutions
---------------------------------------------------------------------------
    The American Legion opposes H.R. 3023.

H.R. 3940

    To amend title 38, United States Code, to provide for housing 
stipends and supply fee
    payments under the Post-9/11 Educational Assistance Program for 
individuals affected by extended school closures due to natural 
disasters.
    According to the GI Bill Comparison tool, over 5,000 veterans 
attending schools at 13 institutions in Houston, Texas may have been 
affected by temporary school closures due to Hurricane Harvey in 2017. 
To continue their studies, many had to take online classes, leaving 
them with reduced housing allowances and scrambling to pay their rent 
and bills. The Department of Veterans Affairs currently has a 4-week 
waiver that would allow veterans to receive their full Basic Housing 
Allowance despite taking online courses after natural disasters.
    H.R. 3940 extends this waiver to cover the entire semester. As the 
devastation in Houston and surrounding areas showed, this provision 
would be a critical improvement to the Post-9/11 GI Bill that will 
allow student veterans impacted by national disasters to continue their 
education.
    Resolution No. 21: Education Benefit Forgiveness and Relief for 
Displaced Student-Veterans supports legislation that restores lost 
benefits to student-veterans attending schools that abruptly shut down. 
\4\
---------------------------------------------------------------------------
    \4\ The American Legion Resolution No. 21 (2016): Education Benefit 
Forgiveness and Relief for Displaced Student-Veterans
---------------------------------------------------------------------------
    The American Legion supports H.R. 3940.

H.R. 4451 - Homeless Veterans' Reintegration Programs Reauthorization 
    Act of 2017

    To amend title 38, United States Code, to provide for a five-year 
extension to the homeless veterans reintegration programs and to 
provide clarification regarding eligibility for services under such 
programs.
    A critical federal program in the fight to eliminate veteran 
homelessness is the Homeless Veterans Reintegration Program (HVRP) 
within the Department of Labor's Veterans' Employment and Training 
Services (DOL-VETS). HVRP is the most effective program available to 
address homeless veterans' financial issues by helping them obtain 
gainful employment. HVRP grantees use a case management approach to 
assist homeless veterans, and provide critical linkages for a variety 
of support services available in their local communities. The program 
is employment focused; veterans receive the employment and training 
services they need in order to re-enter the labor force. Direct 
services include placement in employment, skills training, job 
development, career counseling, and resume writing. Support services 
such as clothing, provision of or referral to temporary, transitional, 
and permanent housing, referral to medical substance abuse treatment, 
and transportation assistance are also available.
    Administered by DOL-VETS for over two decades, HVRP served 
approximately 17,000 veterans in 2016, with a national placement rate 
into employment of 68.4 percent. These men and women find employment at 
an average cost to the program of $2,007 per placement. Both the 
placement rate and the cost per placement represent improvements over 
the last several years. Please note - HVRP is the only nationwide 
program focused on assisting homeless veterans to reintegrate into the 
workforce.
    This program is a highly successful grant program that needs to be 
fully funded at $50 million. Currently, HVRP is funded at $45 million. 
Through 153 relatively small investments in community-based partners, 
HVRP capitalizes on the benefits provided by existing service delivery 
systems nationwide.
    Lastly, reauthorizing this program for another five years will 
ensure that many homeless veterans will receive the necessary attention 
and assistance needed to obtain meaningful employment, which immensely 
affects their ability to find financial sustainability, while becoming 
self-sufficient. In addition, this bill allows a window of eligibility 
for those veterans who are rapidly re-housed through SSVF or receive a 
HUD-VASH voucher to use HVRP. This minor change would be extremely 
helpful because if you are housed - a veteran is not technically 
homeless anymore - consequently, the veteran is not eligible for HVRP.
    The American Legion supports H.R. 4451 through Resolution No. 324: 
Support Funding for Homeless Veterans, which calls on The American 
Legion to seek and support any legislative or administrative proposal 
that will provide medical, rehabilitative, and employment assistance to 
homeless veterans and their families. \5\
---------------------------------------------------------------------------
    \5\ The American Legion Resolution No. 324 (2016): Support Funding 
for Homeless Veterans
---------------------------------------------------------------------------
    The American Legion supports H.R. 4451.

H.R. 4830 - ``Servicemembers Improved Transition through Reforms for 
    Ensuring

Progress Act'' or the ``SIT-REP Act

    To amend title 38, United States Code, to provide for the 
disapproval of any course of education for purposes of the educational 
assistance programs of the Department of Veterans Affairs unless the 
educational institution providing the course permits individuals to 
attend or participate in courses pending payment by Department, and for 
other purposes.
    Since the enactment of the Post-9/11 GI Bill, veteran and dependent 
beneficiaries have been subject on occasion to payment delays. As a 
result of either slow VA processing, mistakes, or tardiness by school 
certifying officials, some schools have put beneficiary accounts on 
hold or forced them to initiate payment of tuition and fees through 
student loans until payment from VA is received.
    H.R. 4830 would establish that a school or training program be 
required - in order to be eligible for GI Bill benefits - to adopt a 
policy that disallows them from imposing a late fee, denial of access 
to facilities, or other penalty on beneficiaries due to a late payment 
from VA. This mandate would mirror the protections that students 
receiving Title IV funding such as Pell Grants and Federal Student Aid 
receive.
    The American Legion supports H.R. 4830 through Resolution No. 318: 
Ensuring the Quality of Servicemember and Veteran Student's Education 
at Institutions of Higher Education that supports any legislative 
proposal that improves education benefits so servicemembers, veterans, 
and their families can maximize its usage. \6\
---------------------------------------------------------------------------
    \6\ The American Legion Resolution No. 318 (2016): Ensuring the 
Quality of Servicemember and Veteran Student's Education at 
Institutions of Higher Education
---------------------------------------------------------------------------
    The American Legion supports H.R. 4830.

H.R. 4835 - ``Job Training through Off-Base Opportunities and

Local Support for Veterans Act'' or the ``Job TOOLS for Veterans Act''

    To extend the pilot program on off-base transition training for 
veterans and spouses.
    The goal of the Department of Labor's (DOL) Transition Assistance 
Program (TAP) is to ease the adjustment of separating servicemembers 
during the difficult transition from active-duty into civilian life by 
offering job search assistance, medical/health services, the advising 
of available benefits, and other related counseling. The American 
Legion believes strongly that TAP represents an important step toward 
providing transitioning servicemembers with the information they need 
to become successful and productive members of society once they 
complete their military service.
    In 2012, The American Legion helped push for expansion of TAP to 
those who had already separated from service. In response, Congress 
passed the Dignified Burial and Other Veterans' Benefits Improvement 
Act of 2012 (P.L. 112-260, Section 301). Provisions in this act 
authorized an Off-Base Transition Training (OBTT) pilot program that 
would extend the TAP programs to veterans and their spouses in a 
community-based setting. The law required the pilot program to be 
established by the DOL in a minimum of three states, with selection 
favoring states with ``high rates of unemployment among veterans.'' DOL 
ultimately conducted 21, three-day workshops in Georgia, Washington, 
and West Virginia. Overall course ratings by participants were high. 
The OBTT pilot program expired in January of 2015. \7\
---------------------------------------------------------------------------
    \7\ https://fas.org/sgp/crs/natsec/IF10347.pdf
---------------------------------------------------------------------------
    H.R. 4835 would provide for a new five-year pilot program and 
establish 50 centers across the country to expand access to job 
resources and ensure DOL provides classes with job-training 
information. The expansion of this program will give our veterans and 
their spouses the support they deserve.
    The American Legion supports H.R. 4835 through Resolution No. 70: 
Improve Transition Assistance Program. \8\
---------------------------------------------------------------------------
    \8\ The American Legion Resolution No. 70 (2016): Improve 
Transition Assistance Program
---------------------------------------------------------------------------
    The American Legion supports passage of H.R. 4835.

H.R. 5044 - Service-Disabled Veterans Small Business Continuation Act

    To amend title 38, United States Code, to clarify the treatment of 
certain surviving spouses under the contracting goals and preferences 
of the Department of Veterans Affairs.
    For a servicemember who suffers a disability while in military 
service, the U.S. Government has deemed it its moral obligation to 
provide the disabled veteran a range of benefits designed to ease the 
economic and other losses and disadvantages incurred as a consequence 
of the disability. These benefits include government assistance for 
entering the federal procurement marketplace. One form this takes are 
sets aside contract benefits for companies considered 'Service-Disabled 
Veteran-Owned Small Business (SDVOSB.)
    The 2017 National Defense Authorization Act (NDAA) makes some 
important adjustments to the criteria for ownership and control of a 
service-disabled veteran-owned small business. Among other things, the 
2017 NDAA specifies that a veteran with a permanent and severe 
disability need not personally manage the company on a day-to-day basis 
and, under limited circumstances, permits a surviving spouse to 
continue to operate the company as an SDVOSB. \9\
---------------------------------------------------------------------------
    \9\ https://www.congress.gov/congressional-report/114th-congress/
house-report/840/1
---------------------------------------------------------------------------
    With regard to the later, the 2017 NDAA states that a surviving 
spouse may continue to operate a company as an SDVOSB when a veteran 
dies, provided that: (1) the surviving spouse acquires the veteran's 
ownership interest; (2) the veteran had a service connected disability 
``rated as 100 percent disabling'' by the VA, or ``died as a result of 
a service-connected disability'' and (3) immediately prior to the 
veteran's death, the company was verified in the VA's VetBiz database. 
When the three conditions apply, the surviving spouse may continue to 
operate the company as an SDVOSB for up to ten years, although SDVOSB 
status will be lost earlier if the surviving spouse remarries or 
relinquishes ownership in the company. \10\
---------------------------------------------------------------------------
    \10\ http://smallgovcon.com/service-disabled-veteran-owned-small-
businesses/sdvosb-programs-2017-ndaa-modifies-ownership-control-
criteria/
---------------------------------------------------------------------------
    H.R. 5044 would give the surviving spouse of a service-connected 
veteran with less than total disability rating at the time of death, 
the option of maintaining SDVOSB status for three years. The Spouse 
must also retain ownership of at least 51 percent of the company for 
the duration of the time he/she claims SDVOSB status.
    The American Legion supports H.R. 5044 through Resolution No. 151: 
Status of Service-Disabled Veteran-Owned Business after the Death of 
the Veteran Owner that supports legislative action that will improve 
and increase the benefits bequeathed to veteran's spouses or dependents 
upon a veteran business owner's death.
    The American Legion supports HR 5044.

DRAFT BILL: VA Home Loan Improvement Act of 2018

    To amend title 38, United States Code, to make certain improvements 
in the laws administered by the Secretary of Veterans Affairs relating 
to the home loan program of the Department of Veterans Affairs, and for 
other purposes.
    VA's Home Loan Guaranty Program has been in effect since 1944 and 
has afforded over 22 million veterans the opportunity to purchase a 
home. The 740,000 VA loans in 2017 were the most in a single year, and 
up more than 300,000 from three years ago. The Washington, DC area has 
had a 78 percent increase in VA loans in the past four years, according 
to Veterans United Home Loans, the largest VA purchase lender in the 
country. The home loan programs offer veterans a centralized, 
affordable and accessible method of purchasing homes in return for 
their service to this nation. Past and present statistics released by 
the Mortgage Bankers Association's National Delinquency Survey show 
that veterans using VA loans have the lowest foreclosure rate in the 
United States. \11\
---------------------------------------------------------------------------
    \11\ https://www.military.com/money/va-loans/home-purchase/va-
loans-have-lowest-foreclosure-rate.html
---------------------------------------------------------------------------
    VA does not set a cap on how much someone can borrow to finance his 
or her home. However, there are limits on the amount of liability VA 
can assume. The loan limits are the amount a qualified veteran may be 
able to borrow without making a down payment. These loan limits vary by 
county, since the value of a house depends in part on its location. 
Limits currently range from $453,100 to $679,650. Loans above these 
limits are referred to as Jumbo Loans.
    Currently, a veteran does not have to pay a down payment on the 
initial VA loan below the loan limit for an area. However, under 
current law, veterans must pay a 25% down payment on any amount that 
exceeds the excess of the local limit. For instance, if an eligible 
veteran wants to purchase a home that costs $650,000 in an area of the 
country with a loan limit of $453,100, they would have to make a down 
payment of $49,225, 25% of $196,900 difference between the loan limit 
and the price of the home. This can be a significant barrier to 
veterans purchasing a home through the VA home loan program.
    The VA Home Loan Improvement Act of 2018 would eliminate the 25% 
down payment for Jumbo Loans. Veterans would now only have to pay a VA 
funding fee on the loan, but at a cost much lower than the present down 
payment. Veterans with a service-connected disability rated as total, 
or any surviving spouse of such a veteran, would be exempt from these 
under this bill, however.
    It is the sincere desire of The American Legion to see all veterans 
realize the American dream of owning their own home, but real estate 
prices have rebounded since the subprime mortgage crisis, occurring 
between 2007-2010, and now can far exceed the maximum VA loan amount.
    The American Legion supports this draft bill, as currently written, 
titled the VA Home Loan Improvement Act of 2018.

Conclusion

    The American Legion thanks this Committee for the opportunity to 
explain the position of the over 2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact Mr. Jeff Steele, Assistant Director of the Legislative 
Division at The American Legion, at (202) 263-2987 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c667f78696960694c60696b65636222637e6b22">[email&#160;protected]</a>
                                 <F-dash>
                 Prepared Statement of Ashlynne Haycock
Tragedy Assistance Program for Survivors

    The Tragedy Assistance Program for Survivors (TAPS) is the national 
nonprofit organization providing compassionate care for the families of 
America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, grief seminars and retreats for 
adults, Good Grief Camps for children, casework assistance, connections 
to community-based care, online and in-person support groups and a 24/7 
resource and information helpline for all who have been affected by a 
death in the Armed Forces. Services are provided free of charge.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 75,000 bereaved 
surviving family members. For more information, please visit 
www.TAPS.org.
    TAPS receives no government grants or funding.

Ashlynne Haycock

    Ashlynne Haycock is currently the Manager, Education Services for 
the Tragedy Assistance Program for Survivors (TAPS). Ashlynne was 
recently appointed to the Department of Veterans Affairs Advisory 
Committee on Education (VACOE). She is the surviving daughter of US 
Army SFC Jeffrey Haycock, who died in the line of duty in 2002, and US 
Air Force Veteran Nichole Haycock, who died by suicide in 2011. She 
graduated from American University with a Bachelor's degree in 
Political Science in 2013. While at American University she was one of 
the first recipients of the Marine Gunnery Sergeant John Fry 
Scholarship.
    Ashlynne has been involved with TAPS as a survivor for over 15 
years. She has been on staff with TAPS for four years and was 
instrumental in creating the TAPS Education Support Services program 
and online education portal. She is an experienced professional in all 
areas of education benefits for surviving children and spouses at the 
federal, state and private levels. Ashlynne is regularly invited to 
participate in forums focusing on veteran and survivor education 
benefits. She has assisted over 1,500 survivors in accessing education 
benefits worth over $170 million in assistance since 2013. Ashlynne was 
highly involved in growing the TAPS partnership with the Department of 
Veterans Affairs since 2014 to establish a Memorandum of Agreement, 
which was expanded in 2017.
    Chairman Arrington, Ranking Member O'Rourke and distinguished 
members of the Economic Opportunity Subcommittee of the House Veterans' 
Affairs Committee, the Tragedy Assistance Program for Survivors (TAPS) 
thanks you for the opportunity to make you aware of issues and concerns 
of importance to the families we serve, the families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD) and 
the Department of Veterans Affairs (VA), Department of Education 
(DoED), state governments and local communities for the families of the 
fallen - those who fall in combat, those who fall from invisible wounds 
and those who die from illness or disease.
    TAPS appreciates the attention the Committee has paid to making 
sure that veterans and surviving family members have access to quality 
education. Surviving family members using their education benefits 
often face many of the same challenges facing all students. TAPS is 
proud to work with other organizations, including the American Legion, 
Veterans of Foreign Wars, Veterans Education Success and Student 
Veterans of America, to ensure safeguards are in place to protect all 
recipients of education benefits from the VA and DoED.
    TAPS would like to thank the Committee for all the provisions in 
the Harry W. Colmery Veterans Educational Assistance Act of 2017 that 
assisted our surviving families, such as Yellow Ribbon for Fry 
Scholarships recipients, the removal of the delimiting date for Fry-
eligible spouses and an increase in Chapter 35 educational benefits. We 
look forward to seeing them implemented in the coming months.
    We are most appreciative of the opportunity to comment on and offer 
our support of H.R. 4830, the ``Servicemembers Improved Transition 
through Reforms for Ensuring Progress Act'' or the ``SIT-REP Act.''
    Indicative of the specialized support that TAPS provides is the 
education portal and individualized guidance on education benefits 
available for the children and spouses of America's fallen heroes. TAPS 
staff members work with each individual to maximize the financial 
support they can receive to complete their education from both 
government and private agencies.
    TAPS would like to recognize the outstanding support we receive 
from the VA on behalf of the survivors we serve. For several years we 
have been honored to have a Memorandum of Agreement (MoA) with the 
education specialists in the office of Economic Opportunity in the 
Veterans Benefits Administration enabling TAPS and the VA to work most 
efficiently in solving problems that surviving spouses and children 
encountered while accessing their VA education benefits. This 
relationship also allowed the VA to discover areas where policy or 
processes could be improved so they could serve survivors more 
effectively.
    The VA Office of Survivor Assistance, including director Moira 
Flanders and her staff, works closely with TAPS to answer questions and 
concerns that are raised by surviving family members. We also 
appreciate the opportunities provided by the DoD/VA Survivors Forum, 
held quarterly, which works as a clearinghouse for information on 
government and private sector programs and policies affecting surviving 
families. This is ably facilitated by Craig Zaroff of the VA Benefits 
Assistance Service.
    TAPS was recently honored to enter into a new and expanded 
Memorandum of Agreement with the VA. This agreement formalizes what has 
been a long-standing, informal working relationship between TAPS and 
the VA. The services provided by TAPS and the VA are complementary, and 
in this public-private partnership each will continue to provide 
extraordinary services through closer collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Implementation Challenges

    We have heard from many TAPS surviving spouses concerning the 
implementation of the Harry W. Colmery Veterans Educational Assistance 
Act of 2017. While they are most appreciative of the enhanced benefit, 
many have encountered stumbling blocks.
    TAPS' biggest concern with all the changes being implemented on 
August 1, 2018, is that there will be delayed payments and processing 
time for payments for veterans and survivors enrolled for the fall 2018 
semester.
    Even with the few changes that went into effect in the fall of 
2017, TAPS had issues with many institutions of higher learning (IHLs) 
demanding payment from the student because of delayed VA payments. 
Students receiving VA payments were not allowed to attend classes, 
register for Spring 2018 or use campus facilities (library, health 
center) because the VA payment was delayed. In some cases, students 
were put on payment plans they could not afford or forced to take out 
student loans with egregious origination fees in order to continue 
their education program.
    TAPS would recommend that students receiving VA payments have the 
same protections as those who receive Title IV funding such as Pell 
Grants and Federal student loans. These Title IV students are allowed 
to attend classes, participate in extra-curricular activities and use 
campus facilities, as long as the IHL knows that payment will arrive.
    TAPS strongly believes that the best way to do this is through a 
legislative change. We have been in discussion with the House Veterans 
Affairs Committee (HVAC) majority staff to assist these students.
    After we spoke of our concerns at the House Veterans Affairs 
Committee hearing on the implementation of the Harry W. Colmery 
Veterans Educational Assistance Act of 2017 (the Forever GI Bill), we 
were pleased when Representative Gus Bilirakis approached us to express 
his interest in sponsoring this important legislation. We worked 
closely with his staff and the HVAC staff to come up with language that 
would correct this injustice for veterans and survivors using their VA 
education benefits.
    H.R. 4830 would give the Secretary of Veterans Affairs the ability 
to disapprove any course of education unless the educational 
institutions providing the course permit individuals to attend or 
participate in courses pending payment by the VA and accept a 
Certificate of Eligibility (COE) as a promise of payment.

Survivors Share Their Stories

Yesenia Bernal, surviving spouse of Army SPC Rudolfo Bernal and student 
    at Aurora College

    I was put on a payment plan, made to pay upfront the payments 
missed and late fees. I was refunded the payments but not the late fees 
at the end of the semester. This impacted our budget at home, of 
course, but we adjusted to make it work. I had to pull from other 
accounts to do so, which generated yet another fee. I am blessed to 
have graduated tuition free, ever grateful for the Fry scholarship. I 
feel like sharing that story sounds ungrateful, because it was the only 
financial hardship I had throughout my school career compared to what 
other students have to pay. However, if I hadn't had the additional 
funds to make it work I would have had to take the semester off.

Weston Haycock, surviving child, student at Montana State University

    Weston is enrolled at Montana State University and because the VA 
tuition payment had not arrived before the start of the semester the 
school advised him to take out a loan and repay it when the VA money 
arrived. They did not inform him that there would be initiation fees he 
had to pay back on top of the original loan amount. The VA money 
arrived when it was supposed to-4 weeks after being certified by the 
school, but nevertheless Weston was penalized.

Timmy Swenson, surviving child, student at Blinn College, Texas

    Timmy's grandmother shares their story: Timmy and I did a visit in 
April of his senior year to Clarendon College. The visit included the 
finance office. Timmy drove up (10 hour drive) on Friday, August 25, 
the day Houston was beginning evacuations for hurricane Harvey. He was 
to move into dorm on Saturday, the 26th. Move in went well. He was very 
concerned about what was going on at home. Then, when he went to main 
admin on Monday to check in to begin classes on Tuesday, he was 
informed that he could not attend any classes until monies had been 
paid. Apparently Clarendon College is too small to have a full time VA 
advisor. Poor Timmy was panicked, but didn't want to worry us as Harvey 
was impending! He didn't know what to do, but decided to deplete his 
saved living expense money to pay his tuition. He contacted Ashlynne at 
TAPS, and eventually was reimbursed. Then, mostly due to my husband's 
health issues, and being 10 hours away, he transferred to a closer 
college for this semester. Blinn College in College Station, Texas, 
finally allowed him to enroll. He had to make a payment plan again for 
tuition, which I was luckily able to cover the first payment for him. 
He received reimbursement just before second payment was due. Extremely 
stressful times. If something could be done to alleviate these issues 
for these Gold Star kids, it would sure help!

Malena Smith, surviving child, Indiana University of Pennsylvania

    This year they decided to change how they would remove the late 
fees and have them not affect you. In previous years I have had to 
fight them to get the late fees and the installment plan taken off of 
my account by having the military and veteran resource center's 
director for Indiana University of Pennsylvania get involved and settle 
it with the military person in the bursar's office who is not that 
helpful and did not want to remove them last spring but did and he said 
it was a one-time only thing to get them removed. The late fee and 
installment plan is $70.
    The fall is not too much of a problem because of when the bill is 
due and when they receive the money from the government. That being 
said this past spring was different. They began asking for money at the 
normal time but not enforcing it until February. Our documents for how 
many credit hours we are taking don't get sent in until the end of add/
drop period which in the spring is a week after class begins. My 
information was not sent in until the week of the 29th of January if 
not later. It all depends on how long it takes them to get through the 
others that have to be submitted. I got the confirmation email that 
said my information was submitted to the VA on the 5th of February. 
Then on the 5th of February I also got an email from the bursar's 
office regarding my billing statement saying that the money is due by 
the 20th of February. Then the school got paid by the VA on the 9th of 
February. I also received an email on the 9th of February that I have 
been enrolled in a payment plan and that it's a one-time installment 
for the rest of the balance due and it has to be paid by the 20th of 
March. Then on the 10th of February I got another email saying that I 
had been assessed a two payment plan in the amount of $40.00. And the 
two payments are due on the 25th of February and rest of balance on the 
20th of March. It says in the email that if you are contracted to 
receive a scholarship, VA Benefits or third party payment, the plan and 
charge will be removed when payment is received. It also has a new due 
date of the 25th of February.
    When I paid the remaining balance on the 12th the payment plan and 
charge was removed without any issue. However I know that this will 
happen again because the office of Military and Veteran Resource Center 
submits our paperwork to the VA. Do I blame them for any of this? No. 
However I wish that the bursar would be able to flag my account or make 
a note that my money is coming from the VA so that this doesn't happen. 
Thank you for fighting for us in Congress and wanting to pass this law.

Other Legislation

    We would like to offer short comments on some of the other 
legislation being discussed at today's hearing.

H.R. 1206

    TAPS supports the ``Reducing Barriers for Veterans Education Act of 
2017.''

    This bill makes an individual who is eligible for educational 
assistance under the Post-9/11 Educational Assistance program eligible 
for assistance with the fees for applying to IHLs. Surviving spouses 
and children using the Fry scholarship will also be eligible for help 
with these fees.

H.R. 3940

    TAPS supports the ``Veterans Education Disaster Assistance Act.'' 
The horrific disasters that impacted so many students this past fall 
impacted the education benefits of many veterans and survivors. We 
should do what we can to make them whole again concerning their housing 
stipends and supply stipends.

H.R. 3023

    TAPS is concerned that eliminating the authority of the Department 
of Veterans Affairs to pay reporting fees to educational institutions 
will undo the advances achieved by the Forever GI Bill. We have heard 
from our partner organization, the National Association of State 
Approving Agencies (NASAA), and share their concerns that this will 
reduce the abilities of some institutions of higher learning to provide 
veterans and survivors resources on campuses.

The Way Ahead

    TAPS would like to reinforce the fact that the more survivors know 
about their benefits, the better they are equipped to make informed 
decisions. We would like to see what the VA's communication plan is to 
publicize and inform veterans and survivors about changes to their 
benefits as a result of the Forever GI Bill.
    Those serving our veterans and survivors need to get the word as 
well. While mandatory training for school certifying officials is 
included in the Forever GI Bill, we are concerned about the IHLs being 
aware of the changes coming in August 2018. We know that the Office of 
Economic Opportunity is pushing out information to IHLs. We hope there 
will be coordination within the IHLs so that the person actually 
talking to the student is aware of the changes.
    Continued cooperation between the VA, the Committee and interested 
VSOs, MSOs and survivor advocates is essential to make the 
implementation of the Forever GI Bill a success. TAPS will continue to 
provide feedback to both the VA and the Committee on the experience of 
survivors.

                                 <F-dash>
                 Prepared Statement of William Hubbard
    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Committee:

    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the modernization of the GI Bill and other pending 
legislation. With over 1,500 chapters representing the more than 
700,000 student veterans in schools across the country, we are pleased 
to share the perspective of those directly impacted by the subjects 
before this Committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research on ways to improve 
the landscape, and advocacy throughout the nation. We place the student 
veteran at the top of our organizational pyramid. As the future leaders 
of this country and some of the most successful students in higher 
education, fostering the success of veterans in school is paramount to 
their preparation for productive and impactful lives. \1\
---------------------------------------------------------------------------
    \1\ Shane, Leo. Military Times. Report: Young vets are more 
successful than their civilian peers. July 29, 2017. https://
www.militarytimes.com/veterans/2017/07/29/report-young-vets-are-more-
successful-than-their-civilian-peers/
---------------------------------------------------------------------------
    Edward Everett, our nation's 20th Secretary of State, and the 
former President of Harvard University was famously quoted as stating, 
``Education is a better safeguard of liberty than a standing army.'' 
While we have the finest military that the world has ever known, the 
sentiment remains; the importance of education to our nation's national 
security continues to be critical. Today, we will discuss several 
topics up for consideration in front of this body.
    Many of the topics under consideration focus on the issues of 
transition, education, and employment. In addition to these topics, 
we'd like to address the ongoing situation with Ashford University. \2\ 
At this time, it is unclear what the Department of Veterans Affairs 
(VA) in conjunction with the state approving agencies (SAA) intend to 
conclude regarding the case. At present, Ashford effectively has no 
current approval for GI Bill funds, while the school continues to seek 
approval in several states including Arizona and \3\California. \4\
---------------------------------------------------------------------------
    \2\ U.S. Department of Veterans Affairs, Education and Training, 
ASHFORD UNIVERSITY, https://www.benefits.va.gov/gibill/ashford.asp.
    \3\ Vasquez, Michael. The Chronicle of Higher Education. Ashford U. 
faces new setback in battle over GI Bill funds. 21 February 2017. 
https://www.chronicle.com/article/Ashford-U-Faces-New-Setback/242602.
    \4\ Vasquez, Michael. The Chronicle of Higher Education. Inside the 
Scramble to Save Ashford U. Nov 10, 2017. https://www.chronicle.com/
article/Inside-the-Scramble-to-Save/241747.
---------------------------------------------------------------------------
    As the situation remains unclear, we support the intent of VA at 
minimum stop new enrollments of GI Bill students until the situation is 
resolved. \5\ Historically, we have provided direct support to student 
veterans and their families that have been displaced from tenuous 
education situations. It is clear that resolving this situation as soon 
as possible is in the best interest of students and all others 
involved. As Forever GI Bill implementation is ongoing, we recognize 
the constraints on the VA education service staff.
---------------------------------------------------------------------------
    \5\ Id.
---------------------------------------------------------------------------
    We also strongly applaud Director Rob Worley and his team for their 
incredible commitment to the implementation of the historic Forever GI 
Bill legislation and other economic opportunity programs.

H.R. 1206, Reducing Barriers for Veterans Education Act of 2017

    This bill proposes allowing eligible Post-9/11 GI Bill recipients 
to charge a pro-rated cost of application fees when applying to schools 
up to $750 to GI Bill entitlement. In some cases, students are 
dissuaded from attending school due to the cost of various application 
fees. We strongly believe there should be as few barriers as possible 
preventing a student from attending any school of their choosing, and 
this is a common-sense solution that empowers students with the 
discretion to cover these up-front costs. More importantly, the bill 
proposes pro-rating these charges against GI Bill entitlement, thereby 
allowing the costs to be equally reflected in the charge instead of 
previous methods of charges which cost the student an entire month of 
entitlement.
    The movement towards micro-assessing entitlement for administrative 
barriers to educational success is a positive trend for student 
veterans and their families, allowing a scalpel approach in covering 
costs associated with attending school or completing training. For 
example, the Forever GI Bill signed into law last year included 
provision 108, which afforded students the opportunity to charge a pro-
rated amount of entitlement to cover the costs of completing 
certification or licensure tests. \6\ We appreciate Rep. Luke Messer's 
thoughtful approach to this challenge, and the interest in increasing 
access to the GI Bill for those who earned it. Student Veterans of 
America supports this bill.
---------------------------------------------------------------------------
    \6\ Harry W. Colmery Veterans Education Assistance Act of 2017 
Sec. 108. Pub. L 115-48. (2017). https://www.congress.gov/bill/115th-
congress/house-bill/3218.

---------------------------------------------------------------------------
H.R. 3023, To amend title 38, United States Code, to eliminate.

    This bill proposes termination of the reporting fee associated with 
the Post-9/11 GI Bill intended to defray the costs of processing 
payments for student tuition. The Forever GI Bill raised the reporting 
fee to $16 per student to more accurately reflect the resources needed 
for school certifying officials (SCO) on campuses to certify the 
enrollments of GI Bill users. \7\ Congress has functionally used this 
fee as a checking account since the passage of the Post-9/11 GI Bill in 
2008, with the fee rising or falling in accordance with the 
prioritization of other costs associated with the GI Bill. While we see 
this fee as a critical component of the administration of the GI Bill, 
we also appreciate the fact that constrained fiscal circumstances 
require a hard look at all costs across the federal budget. 
Understanding the return on investment of finite and valuable taxpayer 
dollars is of critical importance.
---------------------------------------------------------------------------
    \7\ Harry W. Colmery Veterans Education Assistance Act of 2017 
Sec. 304. Pub. L 115-48. (2017). https://www.congress.gov/bill/115th-
congress/house-bill/3218.
---------------------------------------------------------------------------
    To quote House Veterans Affairs Committee Subcommittee Chairman 
Jodey Arrington, ``It's not just about inputs and outputs, but most 
importantly-outcomes.'' \8\ As such, the outcomes for schools in the 
case of student veterans is a clear issue. Students typically pay some 
level of a ``discount rate'' when they cover the cost of tuition. \9\ 
In fact, GI Bill users are largely the only student population still 
paying the full cost of attendance. Universities that understand this 
business opportunity tend to recruit student veterans in droves; while 
some of these schools take this recruitment to an extreme level 
employing predatory practices, good schools ought to recognize the 
business value of recruiting GI Bill users whether there is a reporting 
fee, or not. \10\ We strongly oppose the removal of this fee, which 
mitigates the cost of processing GI Bill payments. However, we also 
recognize the inherent value of student veterans to any campus 
\11\community. \12\
---------------------------------------------------------------------------
    \8\ United States. Cong. House. Committee on Veterans Affairs. An 
Update on the Implementation of the Forever GI Bill, the Harry W. 
Colmery Educational Assistance Act of 2017. Hearings, December 12, 
2017. 115th Cong. 2nd sess.
    \9\ Baum, S., Lapovsky, L. The College Board. Tuition Discounting: 
Not Just a Private College Practice. (2006) http://
www.collegeboard.com/prod--downloads/press/tuition-discounting.pdf
    \10\ Westervelt, Eric. National Public Radio Education. For-Profit 
colleges seeking veterans' GI Bill dollars aren't always the best fit. 
29 January 2017. https://www.npr.org/sections/ed/2016/01/29/464579497/
veterans-to-higher-ed-big-room-for-improvement.
    \11\ Institute for Veterans and Military Families, Student Veterans 
of America. I am A Post-9/11 Student Veteran. (2017). https://
ivmf.syracuse.edu/wp-content/uploads/2017/06/I-AM-A-POST-911-Student-
Veteran-REPORT.pdf
    \12\ Institute for Veterans and Military Families, Student Veterans 
of America. Student Veterans: A Valuable Asset to Higher Education. 
(2017). https://ivmf.syracuse.edu/wp-content/uploads/2017/09/Student-
Veterans--Valuable--9.8.17--NEW.pdf

---------------------------------------------------------------------------
H.R. 3940, Veterans Education Disaster Assistance Act

    This bill seeks to address an unfortunate but painful reality that 
natural disasters will interrupt the education of some student veterans 
as they seek degrees and credentials. Most recently, wildfires in 
California and Hurricane Harvey in Texas that greatly affected schools 
and student veterans experienced this serious challenge \13\first-hand. 
\14\ This bill would provide housing stipends and supply fee payments 
for Post-9/11 GI Bill users affected by extended school closures caused 
by natural disaster, specifically those students forced to discontinue 
studies due to a school closure if students choose to pursue course of 
education solely by distance learning or an alternative course of 
education by distance learning. GI Bill users would be afforded a 
monthly stipend for an amount they would be entitled to if pursuing 
education at the school and an additional lump sum for books, supplies, 
equipment, and other necessary education costs to avoid a break in 
their education.
---------------------------------------------------------------------------
    \13\ Fain, Paul. Inside Higher Ed. Southern California Wildfires 
Threaten Colleges. 7 December 2017. https://www.insidehighered.com/
quicktakes/2017/12/07/southern-california-wildfires-threaten-colleges
    \14\ Roll, Nick. Inside Higher Ed. Texas Colleges Brave Harvey. 28 
August 2017. https://www.insidehighered.com/news/2017/08/28/texas-
colleges-cope-hurricane-harvey
---------------------------------------------------------------------------
    The duration of this solution would cover costs of up to a period 
of four months, and no additional charge would be made to the student's 
entitlement. When natural disaster strikes, the last thing student 
veterans should worry about is their opportunity to properly complete 
their education, and the resources afforded to make that possible. We 
applaud Rep. Ted Poe for hearing the voices of student veterans in 
Texas, as our chapters brought these concerns to the forefront of 
policy in 2017. Student Veterans of America strongly supports this 
bill, and we appreciate the dedication to addressing the challenges 
related to education in light of an otherwise tragic crisis.

H.R. 4451, Homeless Veterans' Reintegration Programs Reauthorization 
    Act of 2017

    This bill proposes a five-year extension of the homeless veterans' 
reintegration program, and also provides clarification regarding 
eligibility for program services. The program is currently authorized 
by law, with the executing agent as the Department of Labor Veterans 
Employment and Transition Service (DoL VETS) program. \15\ Homeless 
Veterans' Reintegration Program (HVRP) grantees provide a core set of 
services determined by the needs of veterans, the employers in the 
area, and the local labor market. Services are focused on providing 
veterans experiencing homelessness with relevant skills, connecting 
these veterans to employers, and improving employment outcomes and 
earnings for veterans while they are enrolled.
---------------------------------------------------------------------------
    \15\ Title 38 USC Section 2021, added by Section 5 of Public Law 
107-95, the Homeless Veterans Comprehensive Assistance Act of 2001, 
https://www.congress.gov/107/plaws/publ95/PLAW-107publ95.pdf
---------------------------------------------------------------------------
    The program has a broader focus beyond just online job 
applications, with an emphasis on quality placements and sustained 
retention. HVRP achieves this through four core activities including 
outreach, assessment and intake, job-driven training and employment, 
and follow-up services. \16\ Grants under this program are awarded on a 
competitive basis to eligible applicants such as state and local 
Workforce Investment Boards (WIB), non-profit organizations, commercial 
entities, and others. \17\ Program outcomes as cited in the program 
evaluation demonstrate that nearly two-thirds of all program 
participants are placed into employment, enabling them to break the 
cycle of homelessness. \18\
---------------------------------------------------------------------------
    \16\ U.S. Department of Labor, Veterans' Employment and Training 
Service. HOMELESS VETERANS' REINTEGRATION PROGRAM. https://www.dol.gov/
vets/programs/hvrp/
    \17\ Avar Consulting, Inc, U.S. Department of Labor. Formative 
Evaluation of the Homeless Veterans Reintegration Program. (Sept. 2016) 
https://www.dol.gov/asp/evaluation/completed-studies/Formative--
Evaluation--of--the--Homeless--Veterans--Reintegration--Program--
Report.pdf
    \18\ Id.
---------------------------------------------------------------------------
    The unfortunate truth is that some student veterans face hurdles in 
affording housing, or have inconsistent housing options. Over the past 
several years, a number of student veterans have reached out to our 
organization for support with their housing situation, in some 
instances after the individual was already in need of emergency 
support. While homelessness is not a core competency of Student 
Veterans of America, we always seek to support student veterans in any 
way possible, to include connecting homeless veterans with our partners 
with expertise in supporting these issues.
    In these instances, we have referred cases to our friends at the 
Veterans of Foreign Wars (VFW) and the American Legion. Both 
organizations have emergency funds to address such situations; I'd like 
to highlight the VFW's ``Unmet Needs'' program, which has been 
particularly impactful. \19\ We have also worked closely with the 
National Coalition for Homeless Veterans (NCHV) and their incredible 
team with a nation-wide network of homeless resources. \20\ 
Homelessness among student veterans is often overlooked due to the 
assumption that all student veterans have the GI Bill to cover the cost 
of their housing.
---------------------------------------------------------------------------
    \19\ Veterans of Foreign Wars. FINANCIAL GRANTS. https://
www.vfw.org/assistance/financial-grants
    \20\ National Coalition for Homeless Veterans (NCHV). http://
www.nchv.org
---------------------------------------------------------------------------
    There are numerous reasons that a student veteran does not have GI 
Bill benefits eligibility despite the false myth that ``all veterans go 
to school for free'' including: those who have expended their GI Bill, 
student veterans with families and other financial obligations, 
students without full or any GI Bill eligibility due to Guard or 
Reserve status, or those without GI Bill eligibility due to discharge 
or otherwise legal status. Student Veterans of America believes no 
veteran should ever be homeless, and recognizes homelessness broadly as 
a national tragedy. We thank Rep. Brad Wenstrup for identifying the 
need for extending this program, and strongly support this bill.

H.R. 4830, SIT-REP Act

    This bill proposes requiring schools that accept VA education 
dollars to adopt veteran-friendly policies that prevent discriminating 
student veterans and their families due to payment issues from VA. The 
bill would disapprove any school that fails to adopt policies that (1) 
permit covered individuals to attend institution after providing a 
certificate of eligibility for entitlement to education benefits under 
Chapters 30, 31, 33, or 35 until institution receives payment for 
course or 90 days after certificate of eligibility provided; and (2) 
prohibit institutions from imposing any penalty, including late fees, 
denial of access to classes, facilities, etc., or requirement that the 
individual borrow additional funds due to delayed benefit disbursement.
    Schools may view payments from GI Bill students as delayed, and 
thereby require students to take out unnecessary loans or assess unfair 
late fees, while the timing of the payments is under no control of the 
student. In the case of Post-9/11 GI Bill, for example, the VA requires 
the SCO to certify the student enrollment before VA authorizes payment 
for each of those students. This requirement prevents overpayments and 
otherwise potentially harmful ``clawbacks'' from students. 
Understanding that timely payments to schools is important, schools 
must recognize that penalizing students for using their earned GI Bill 
benefits due to the perceived delays of administrative burden is wholly 
inappropriate.
    In some cases, families of the fallen have been unfairly targeted 
with late fees due to the VA's delayed or late payments at no fault of 
the student. \21\ While some schools have received billions of dollars 
of Post-9/11 GI Bill dollars, we call on higher education as an 
industry to be flexible with service-affiliated students using VA 
education benefits, as it is greatly in their interest to find ways to 
support this important population of non-traditional students. Schools 
that already provide this level of flexibility to these students should 
have no additional burden in compliance with these rules, and Student 
Veterans of America supports the passage of this bill.
---------------------------------------------------------------------------
    \21\ Haycock, Ashlynne. Testimony for Hearing on the Topic of 
``Pending Legislation.'' March 20, 2018, House Committee on Veterans' 
Affairs Subcommittees on Economic Opportunity.

---------------------------------------------------------------------------
SVA PROPOSAL, Under Secretary of Economic Opportunity

    In a recent House Committee on Veterans' Affairs Disability 
Assistance and Memorial Affairs and Economic Opportunity Subcommittees 
hearing on the topic of ``Department of Veterans Affairs Fiscal Year 
2019 Budget: Veterans Benefits Administration (VBA) and the Board of 
Veterans' Appeals,'' Student Veterans of America's Director of Policy, 
Lauren Augustine, testified on the lack of resource-focus on economic 
opportunity programs at VA. \22\ VA has previously expressed publicly 
that, ``Economic competitiveness isn't just about employment; it 
encompasses overall employment, wealth, independent living, housing, 
career mobility and educational attainment. VA is proud to work 
alongside employment experts at the Department of Labor and policy 
leaders in DoD to ensure we are in alignment with relevant trends and 
services they offer to transitioning service members and veterans.'' 
\23\
---------------------------------------------------------------------------
    \22\ Augustine, Lauren. Testimony for Legislative Hearing on the 
Topic of ``U.S. Department of Veterans Affairs Fiscal Year 2019 Budget: 
Veterans Benefits Administration and the Board of Veterans' Appeals.'' 
March 15, 2018, House Committee on Veterans' Affairs Subcommittees on 
Disability Assistance and Memorial Affairs, Economic Opportunity, 
http://docs.house.gov/meetings/VR/VR09/20180315/106968/HHRG-115-VR09-
Wstate-AugustineL-20180315.pdf.
    \23\ Department of Veterans Affairs, ``Understanding Economic 
Competitiveness in Relation to Their Non-Veteran Counterparts.'' 
Accessed March 16, 2018. https://www.data.va.gov/story/economic-
opportunities-veterans.
---------------------------------------------------------------------------
    With economic opportunity as a stated priority of VA, we propose 
the establishment of a Veterans Economic Opportunity Administration at 
VA, including the creation of a new political appointment for an Under 
Secretary for Veterans Economic Opportunity who would report directly 
to the Secretary (see Appendix A). Responsibilities of this new 
division at VA would include the administration of housing loan 
guaranty and related programs, vocational rehabilitation and employment 
(VR&E), education assistance programs, and transition programs (see 
Appendix B for detailed division of applicable programs).
    Our proposal limits the number of additional full-time employees to 
the current footprint of these programs, thereby limits any expansion 
of government and bureaucracy; on the contrary, the proposal flattens 
government, and increases the efficiency of an otherwise historically 
neglected set of veteran-empowering programs. Functionally, we propose 
converting the currently vacant role of the Deputy Under Secretary of 
Economic Opportunity into a political appointment as an Under 
Secretary. This has a laundry list of much-needed outcomes:

    <bullet>  Increases Accountability. As of this hearing, it has been 
886 days since VA last had a permeant Under Secretary of Benefits. \24\ 
As noted, there is currently no Deputy Under Secretary of Economic 
Opportunity. When congress, other federal agencies, and other external 
partners seek accountability, there is effectively nobody to ``answer 
the mail.'' \25\ This proposal would provide for greater accountability 
and access to issues that empower veterans. It further prevents these 
issues from being reduced in priority; at present, VA has given no 
indication that there is any intention of filling the Deputy Under 
Secretary of Economic Opportunity role, effectively going the opposite 
direction of this proposal.
---------------------------------------------------------------------------
    \24\ Shane, Leo. Military Times. VA benefits chief Allison Hickey 
resigns. October 16, 2015. https://www.militarytimes.com/veterans/2015/
10/16/va-benefits-chief-allison-hickey-resigns/
    \25\ Student Veterans of America acknowledges there is a current 
Under Secretary of Benefits candidate pending congressional approval, 
and several acting personnel temporarily filling these roles, though we 
find temporary personnel insufficient due to the institutional 
hesitance to make structural decisions.
---------------------------------------------------------------------------
    <bullet>  Elevates Economic Opportunity Issues. Directly relevant 
to President Trump's Executive Order 13822, ``Supporting Our Veterans 
during Their Transition from Uniformed Services to Civilian Life.'' 
\26\ This proposal supports the importance of transition, education, 
employment, and well-being. Further, sends a strong signal that 
economic opportunity issues truly matter, and are important enough to 
have the leadership of an Under Secretary. Giving a national voice to 
issues like home ownership, education, training, and employment is a 
critically important measure.
---------------------------------------------------------------------------
    \26\ Executive Order 13822. Supporting Our Veterans During Their 
Transition From Uniformed Service to Civilian Life. January 9, 2018. 
https://www.federalregister.gov/documents/2018/01/12/2018-00630/
supporting-our-veterans-during-their-transition-from-uniformed-service-
to-civilian-life
---------------------------------------------------------------------------
    <bullet>  Reduces Bureaucracy. Bureaucracy at VA has historically 
led to serious national challenges, and keeping economic opportunity 
issues buried at the bottom of the VBA is not the answer. The lack of a 
clear response on several basic questions regarding several economic 
opportunity programs at VA underscored the importance of leadership in 
this area, and was a direct result of a structure not functioning to 
benefit the end user. \27\ This proposal flattens the bureaucracy of VA 
in favor of the veteran, versus creating additional layers in the 
current ``chain of command.'' One need only to review the recent budget 
submission to see that the bureaucracy of VA is not resulting in 
resources being devoted to these issues consistent with the needs of 
veterans. \28\
---------------------------------------------------------------------------
    \27\ In a House Veterans Affairs Committee budget hearing on March 
15, 2018, when asked to provide an approximation of how much time is 
spent focusing on each division of the Veterans Benefits 
Administration, senior VA leadership shared, ``I don't know if I could 
answer that correctly''; panel members representing VA were unable to 
provide a clear response as to the purpose of the Vocational 
Rehabilitation and Employment program; several additional responses to 
Member questions failed to provide informative replies.
    \28\ U.S. Department of Veterans Affairs, Office of Budget. FY 2019 
Budget Submission. https://www.va.gov/budget/products.asp
---------------------------------------------------------------------------
    <bullet>  Establishes Direct Counterpart. DoL and the Department of 
Defense (DoD) presently lack a direct counterpart within VA, and any 
significant initiative must achieve multiple layers of approval before 
moving ahead. This proposal provides DoD and DoL with a political 
appointee who can move important programs into the modern age, while 
supporting their missions more broadly for better whole-of-government 
outcomes. Issues such as transition and employment presently suffer 
from a lack of long-term attention, leading to unimpressive outcomes. 
Testifying on transition and employment issues in a Senate Veterans 
Affairs Committee hearing, John Campbell, the Deputy Assistant 
Secretary of Defense for Transition Policy stated that, ``A key 
component [of transition] is introducing information to servicemembers 
early in their careers, not just at the time of separation.'' Campbell 
specifically noted that, ``waiting until the end of military service to 
educate the war fighter.is too late.'' This testimony was delivered to 
the Committee seven years ago, yet transition challenges continue to 
plague this important population of Americans. \29\
---------------------------------------------------------------------------
    \29\ Senate Hearing 112-19, Senate Veterans Affairs Committee, 
Veterans Employment: Improving the Transition from the Battlefield to 
the Workplace. April 13, 2011, http://
www.gpo.gov?fdays?browse?committee.action?chamber=senate&committee=va
---------------------------------------------------------------------------
    <bullet>  Supports ``Whole Health.'' A tragically elastic narrative 
exists around veterans as either ``broken or damaged.'' In reality, the 
vast majority of veterans are like many other Americans-hard-working, 
community-oriented neighbors who want what's best for their children. 
Creation of an Under Secretary of Economic Opportunity will empower 
veterans to be successful as they transition, through improved 
education programs, better employment opportunities. One of the major 
challenges facing veterans today is ``transition stress'', an issue 
that an Under Secretary of Economic Opportunity would be keen to 
address. \30\ With better service and stronger outcomes, more veterans 
will be apt to ``Choose VA.''
---------------------------------------------------------------------------
    \30\ Clark, James. For Most Vets, PTSD Isn't the Problem, 
`Transition Stress' Is. Here's What It Means, January 25, 2018, http://
taskandpurpose.com/what-is-transition-stress/

    Disappointingly, some within the VA structure that have voiced 
opposition to the importance of elevating these issues with the 
creation of Under Secretary of Economic Opportunity. Their concerns 
have been over ``increased resource costs and creation of redundant 
roles.'' Interestingly, the proposal would achieve the exact opposite 
effect. With a capped footprint, no significant increase in costs 
should occur as our proposal intends, unless the implementation at VA 
diverges from the purpose behind the concept. Furthermore, we 
anticipate long-term costs actually decreasing due to additional 
program scrutiny resulting in more cost-effective program management.
    Citing consolidation being a driving factor in increased 
communication-communication which should occur regardless-is a poor 
justification for preventing this greatly needed proposal. While 
current acting leadership may be exceptional at their ability to 
implement these programs, program implementation has been historically 
inconsistent, and may wane in the future to the detriment of veterans. 
It appears maintenance of bureaucracy is the chief concern for those 
opposing this proposal, placing an emphasis on preserving ``the way 
things are'' for the sake of doing so, versus the prioritization of the 
customer: veterans. We believe this to be a short-sighted view, and 
favor looking towards the future instead.
    When previously introduced in the 114th Congress, veterans 
organizations came out in force to support the concept including The 
Disabled American Veterans (DAV), The Veterans of Foreign Wars (VFW), 
The American Legion, Vietnam Veterans of America (VVA), and Iraq and 
Afghanistan Veterans of America (IAVA). \31\ Today, our proposal 
further simplifies the concept and suggest no intention of impacting 
the DoL VETS program; additional veterans organizations have stepped up 
to share their support for the current concept including: The Travis 
Manion Foundation, The Mission Continues, The Retired Enlisted 
Association, High Ground Veterans Advocacy, and others. While some 
prefer the status quo, we recognize that bold initiatives are required 
to ensure our country delivers the best outcomes possible for veterans.
---------------------------------------------------------------------------
    \31\ United States. Cong. House. Committee on Veterans Affairs. 
Legislative Hearing on H.R. 356; H.R. 832; H.R. 1994; H.R. 2133; H.R. 
2275; H.R. 2344; H.R. 2360; H.R. 2361; and a draft bill. Hearings, June 
2, 2007. 114th Cong. 1st sess.
---------------------------------------------------------------------------
    VA proudly cites that the Department, ``has a mission to help 
veterans maximize their economic competitiveness and thus, increase the 
number of economic opportunities for Veterans and their families.'' 
\32\ This proposal will maximize the notion that the Department 
publicly espouses in empowering veterans for successful lives. The 1996 
Congressional Commission on Servicemembers and Veterans Transition 
Assistance once stated, ``If employment is the door to a successful 
transition to civilian life, education will be the key to employment in 
the information age.'' \33\ Future generations of veterans are counting 
on the success of this proposal, and we're eager to work with this 
Congress and President Trump in making it a reality. Student Veterans 
of America is eager to work with this.
---------------------------------------------------------------------------
    \32\ Department of Veterans Affairs, Understanding Economic 
Competitiveness in Relation to Their Non-Veteran Counterparts. Accessed 
March 16, 2018. https://www.data.va.gov/story/economic-opportunities-
veterans.
    \33\ https://ntrl.ntis.gov/NTRL/dashboard/searchResults/
titleDetail/PB2006113212.xhtml
---------------------------------------------------------------------------
    In addition to the testimony on the previously mentioned 
legislation, we generally support the following bills, though we have 
no formal position on these proposals at this time: H.R. 4835, the Job 
Training through Off-Base Opportunities and Local Support for Veterans 
Act; H.R. 5044, the Service-Disabled Veterans Small Business 
Continuation Act; DRAFT, the VA Home Loan Improvement Act of 2018.
    The success of veterans in higher education is no mistake or 
coincidence. Research consistently demonstrates that this unique 
population of non-traditional students is far outpacing their peers in 
many measures of academic performance. \34\ At our 10th annual national 
conference, the President and CEO of SVA, Jared Lyon, shared the story 
of the quote on our anniversary challenge coin noting, ``Some attribute 
the following text to Thucydides and others note that it's a paraphrase 
of a book written by Sir William Francis Butler from the late 1800's. 
The reality, either way, rings as true today as it ever has, and the 
phrase goes like this, `The nation that makes a great distinction 
between its scholars and its warriors will have its thinking done by 
cowards and its fighting done by fools.'" \35\
---------------------------------------------------------------------------
    \34\ Cate, C.A., Lyon, J.S., Schmeling, J., & Bogue, B.Y. (2017). 
National Veteran Education Success Tracker: A Report on the Academic 
Success of Student Veterans Using the Post-9/11 GI Bill. Student 
Veterans of America, Washington, D.C., http://
nvest.studentveterans.org/wp-content/uploads/2017/03/NVEST-Report--
FINAL.pdf.
    \35\ Jared Lyon, Defining Our Future: Today's Scholars, Tomorrow's 
Leaders, Jan. 5, 2018, https://www.linkedin.com/pulse/defining-our-
future-todays-scholars-tomorrows-leaders-jared-lyon
---------------------------------------------------------------------------
    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this Committee, the 
House Veterans' Affairs Committee, and the entire congress to ensure 
the success of all generations of veterans through education.

                                 <F-dash>
                  Prepared Statement of Bonnie Carroll
    March 19, 2018
    The Honorable Gus Bilirakis
    United States House of Representatives
    Washington, DC 20515

    Dear Representative Bilirakis:

    As the national organization that has provided comfort and care to 
the families of America's fallen military heroes since 1994, the 
Tragedy Assistance Program for Survivors (TAPS) would like to thank you 
for sponsoring H.R. 4830, the ``Servicemembers Improved Transition 
through Reforms for Ensuring Progress Act (SITREP).''
    H.R. 4830 would give the Secretary of Veterans Affairs (VA) the 
ability to disapprove any course of education unless the educational 
institutions providing the course permit individuals to attend or 
participate in courses pending payment by the VA and accept a 
Certificate of Eligibility (COE) as a promise of payment.
    For a variety of reasons, VA payments are sometimes delayed. But as 
a result, many institutions of higher learning sometimes demand payment 
from the student because of the delayed VA payments. Students receiving 
these payments are not allowed to attend classes, register for next 
semester classes or use campus facilities (library, health center) 
because of payment delay. In some cases, students are put on payment 
plans they cannot afford or are forced to take out student loans with 
egregious origination fees in order to continue their education 
program.
    H.R. 4830 would correct this unfair policy, allowing students 
receiving VA payments to have the same protections as those who receive 
Title IV funding such as Pell Grants and Federal student loans. Student 
survivors and veterans should not be financially handicapped because of 
VA and higher education bureaucracy.
    We are most grateful for this important legislation and encourage 
your colleagues in the House to sign on to cosponsor this bill.

    Respectfully,

    Bonnie Carroll
    Founder and President

                                 <F-dash>
                       Statements For The Record

                              MATT MILLER

Introduction

    Chairman Arrington, Ranking Member O'Rourke, and distinguished 
members of the Subcommittee, it is an honor for me to have a second 
opportunity to testify before you on matters of great importance to the 
veterans we serve. Thank you for the opportunity to provide a statement 
for today's hearing on legislation that you are considering. I thank 
you all for your tireless efforts to ensure that America fulfills its 
obligations to our service members, veterans, and their families. I am 
the Deputy Assistant Secretary for Policy at the Department of Labor's 
(DOL or Department) Veterans' Employment and Training Service (VETS). 
Our mission is to work with various stakeholders in a manner that 
allows veterans, reservists, and guardsmen to obtain and maintain 
meaningful careers.
    The Department is the Federal government's focal point for 
training, employment services, and information related to the economic 
health of all workers. It has the expertise and a nationwide network to 
provide skills training and employment opportunities for anyone who 
needs them, and veterans receive priority of service. This integrated 
network and DOL programs are best suited to continue generating 
positive employment outcomes for the men and women who have served our 
country. I'm pleased to report the employment situation for veterans 
continues to improve. The unemployment rate for veterans was down to 
3.5 percent for the month of February, and I continue to hear from 
employers who are hiring veterans because they provide the technical 
and leadership skills their businesses need.
    Last year, the Department's programs provided services to over 
662,000 veterans, transitioning service members, and members of our 
National Guard and Reserves. Approximately 400,000 veterans received 
services through the American Job Center (AJC) network; 16,096 homeless 
veterans were served through the Homeless Veterans' Reintegration 
Program (HVRP); 172,847 transitioning service members and military 
spouses were served through the Transition Assistance Program's (TAP) 
employment-related services; 34,981 veterans were served through 
compliance based efforts; and, 38,262 veterans received services 
through active apprenticeships. We continue to work to strengthen our 
coordination and collaboration with the Department of Veterans Affairs 
(VA), the Department of Defense, (DoD), and other federal agencies to 
ensure smooth transitions to civilian employment for those serving in 
our military, and continuing employment assistance for veterans, 
military spouses, and caregivers.
    While this hearing is focused on several bills under consideration 
by the Subcommittee, I will focus my remarks to the two pieces of 
proposed legislation that have a direct impact on the programs 
administered by DOL, specifically on H.R. 4451, the ``Homeless 
Veterans' Reintegration Programs Reauthorization Act of 2017'' and H.R. 
4835, the ``Job Training through Off-Base Opportunities and Local 
Support for Veterans Act,'' or the ``Job TOOLS for Veterans Act.'' 
While we do not take a formal position on the draft bill which would 
establish the Veterans Economic Opportunity and Transition 
Administration within VA, I will speak to DOL's work in the areas of 
economic opportunity and transition.

H.R. 4451-``Homeless Veterans' Reintegration Programs Reauthorization 
    Act of 2017"

    H.R. 4451, the ``Homeless Veterans' Reintegration Program 
Reauthorization Act of 2017,'' provides a four-year extension of the 
authorization of appropriations for the VETS' Homeless Veterans' 
Reintegration Program and Homeless Female Veterans and Veterans with 
Families grants. Additionally, the bill would expand the population 
eligible for program services to include veterans participating in the 
Housing and Urban Development (HUD)-VA Supportive Housing (HUD-VASH) 
program for which rental assistance is provided; Native American 
Veterans who receive assistance under the Native American Housing 
Assistance and Self Determination Act of 1996; veterans who are 
transitioning from being incarcerated; and, veterans participating in 
the VA rapid rehousing and prevention program.
    The Department strongly supports the intent of H.R. 4451, and we 
believe enactment of the bill would enable DOL to provide more 
comprehensive workforce reintegration services to veterans who 
experience homelessness. HVRP is the only federal program focusing 
exclusively on helping homeless veterans to reintegrate into the 
workforce. The Department continues to support the funding of these 
employment services for veterans experiencing homelessness, as well as 
those at-risk of homelessness.
    H.R. 4451 would extend HVRP's authorization to 2022; the current 
authorization is set to expire at the end of Fiscal Year (FY) 2018. \1\ 
Grantees under this program are competitively selected through a 
rigorous application process and are measured based on their 
effectiveness in placing these veterans in employment. In Program Year 
2016, the HVRP served over 16,000 veterans experiencing homelessness, 
and 67 percent of these individuals were placed in jobs.
---------------------------------------------------------------------------
    \1\ 38 U.S.C. Sec. Sec.  2021(e)(1)(F) and 2021A(f)(1) were 
extended through FY 2018 by the Department of Veterans Affairs Expiring 
Authorities Act of 2017, Public Law 115-62.
---------------------------------------------------------------------------
    In our appearance at the Subcommittee's recent hearing on homeless 
veterans, DOL asked the Subcommittee to consider revising the 
definition of homelessness to include expanding the eligible 
populations to include homeless veterans who have been recently housed 
through rapid rehousing and prevention programs, which, in our view, 
will greatly improve homeless veterans' chances of success. We 
appreciate the Subcommittee's response to our request. Studies have 
shown that barriers to employment still exist after immediate housing 
needs are met, and individuals still run a risk of becoming homeless 
again. \2\ This eligibility expansion is especially critical now; as 
communities have become more successful at helping veterans to exit 
homelessness more quickly, the current statutory definition of 
``homeless veteran'' creates an unintended barrier for those veterans 
to be able to access the employment services and opportunities that 
will help ensure that they never experience homelessness again.
---------------------------------------------------------------------------
    \2\ Department of Labor. (2017, December 21) VETS 2016 Annual 
Report to Congress. Retrieved from https://www.dol.gov/vets/media/
VETS--FY16--Annual--Report--to--Congress.pdf.
---------------------------------------------------------------------------
    However, in addition to VA programs, there are many local programs 
that also provide housing services to the homeless veteran population, 
including many programs funded through HUD's Continuum of Care Program 
and Emergency Solutions Grant Program and other federal funding 
sources. The proposed legislative change would not allow veterans 
participating in these faith- or community-based housing programs to be 
eligible for HVRP services. Accordingly, DOL recommends that section 
2(c) of the bill be revised to further amend 38 U.S.C.Sec. 2021(a) to 
also include persons who are considered ``recently housed,'' defined as 
an individual who now has stable living conditions, but was considered 
to meet the definition of ``homeless veteran'' within the 60 days prior 
to requesting services. This would allow the greatest number of 
recently housed veterans to benefit from HVRP services.
    The Department supports the intent of H.R. 4451 recognizing that it 
will mean a substantial increase in the population eligible to receive 
HVRP services. To accommodate these changes with existing funding, VETS 
might need to establish service priorities, in order to reach those 
with the greatest needs and to avoid duplication of services. The 
Department would welcome the opportunity to work with the Subcommittee 
to discuss further amendments to H.R. 4451 that would help to ensure 
the goals of the bill are met.

    H.R. 4835-``Job TOOLS for Veterans Act''

    H.R. 4835, the ``Job TOOLS for Veterans Act,'' tasks the Secretary 
of Labor to conduct off-base transition training (OBTT) for veterans 
and their spouses in no less than 50 locations in States, with at least 
20 States being areas with high unemployment among veterans, for a 
five-year period. At these locations, the Secretary is to provide 
training that generally follows the content of the Transition 
Assistance Program (TAP), under section 1144 of title 10 of the U.S. 
Code.
    The Department supports the concept of providing flexible service 
delivery but disagrees with this approach to serving veterans in 
communities. The TAP model is designed for transitioning active service 
members and spouses who often do not have access to community 
resources. Veterans and their spouses in communities are better served 
through the vast array of services available through the DOL funded 
workforce system.
    The Department attempted such a pilot a few years ago with mixed 
results. The Dignified Burial and Other Veterans' Benefits Improvement 
Act of 2012 (P.L. 112-260), included a similar provision directing the 
Secretary of Labor to conduct a two-year pilot program to provide the 
TAP Employment Workshop to veterans and their spouses at locations 
other than military installations. In January 2015, VETS completed the 
pilot program. In total, VETS conducted 21 pilot workshops in three 
States: Georgia, Washington, and West Virginia.
    Out of 250 total participants, 63 percent were within the 25-44 age 
group. The average attendance was 12 participants per workshop (ranging 
from 2 to 37 participants per workshop) and one workshop had to be 
cancelled due to a lack of participation. While participants in the 
pilot program found it helpful, the components of the program that were 
rated most beneficial are the same components found in the workforce 
system. Fifty-six percent of respondents indicated the resume writing 
instruction was the most beneficial, while 32 percent indicated 
interview skills as the most helpful. In VETS' recent report to the 
Subcommittee on TAP, VETS concluded, ``the employment needs of veterans 
and spouses are best met through the services offered by their local 
AJC. These services may be supplemented where appropriate through 
reference to the online DOL Employment Workshop curriculum. DOL updates 
this curriculum on an ongoing basis. We believe that the programs 
currently in place are sufficient to meet the employment needs of 
veterans and spouses and see no need to provide a DOL Employment 
Workshop to veterans and spouses beyond what is already available 
online.''
    From this pilot, VETS gained a better understanding of the broad 
spectrum of individual employment needs among the veteran population, 
and indicated limitations of a single program of instruction. 
Additionally, it was a challenge for many of the participants to remain 
in the workshop for the entire three days due to personal and 
professional commitments. DOL believes this was a contributing factor 
to the low participation rates.
    Veterans and their spouses may not require the full spectrum of 
skills covered in the Department's Employment Workshop. Depending on 
when the veteran left the military, their work and life experiences 
could be much broader than that of transitioning service members 
entering the civilian workforce for the first time. Veterans may only 
need assistance with resume writing, military skills translation, 
interviewing techniques, or the federal hiring process; or, they may 
require assistance for local or personal issues not covered in the 
Employment Workshop.
    DOL maintains that employment assistance for veterans in 
communities is most effective when provided as part of a comprehensive 
delivery model focused through the State Workforce system, where 
veterans get priority of service and are often eligible for 
individualized career services. The Department believes it would be 
more effective for veterans and their spouses to leverage the existing 
employment resources from our AJCs and implement a one-day model to 
best meet the individual employment needs of veterans and their 
spouses. If the idea of specific veteran workshops is of continuing 
interest to the Subcommittee, we would be pleased to work with you to 
consider mechanisms to make these available.
    For example, with lessons learned from the previous pilot project, 
VETS and the Veterans of Foreign Wars (VFW) partnered with the Johnson 
County AJC in Overland Park, Kansas, to pilot a different model to 
provide personalized employment resources to veterans and their spouses 
by leveraging existing local Workforce System resources. The intention 
of this model was to educate the participants on the vast array of 
services and have them register for follow-on services that best meet 
their personal needs. The feedback provided by VETS, VFW, and the local 
AJC was very positive. The Department was able to implement this model 
under current authority at no additional cost. DOL sees value in 
considering alternatives to hold events like these on the weekend in 
order to attract participants including guardsmen and reservists who 
may not be available on weekdays.
    Finally, we note that H.R. 4835 provides no additional funding for 
this pilot. DOL's Fiscal Year (FY) 2019 request for TAP could not 
support the regular program and a pilot of this magnitude.

Conclusion

    We at the Department are committed to working with our federal, 
state, and local partners to help our veterans to obtain and maintain 
suitable employment, and we look forward to working with the 
Subcommittee to ensure the continued success of our efforts. Chairman 
Arrington, Ranking Member O'Rourke, and distinguished Members of the 
Subcommittee, this concludes my statement. Thank you again for the 
opportunity to testify today. I am happy to answer any questions that 
you may have at this time.

                                 <F-dash>
                               JARED LYON
    March 20, 2018

    Chairman Jodey Arrington
    Ranking Member Beto O'Rourke
    Members of the Subcommittee on Economic Opportunity
    House Committee on Veterans Affairs
    335 Cannon House Office Building
    Washington, DC 20515

    Dear Chairman Arrington, Ranking Member O'Rourke, and Members of 
the Economic Opportunity Subcommittee:

    On behalf of Student Veterans of America (SVA), a coalition of 
student veteran organizations on more than 1,500 college and university 
campuses across the country and representing more than 700,000 student 
veterans in higher education, I am writing to express our support of HR 
4830, the ``Servicemembers Improved Transition through Reforms for 
Ensuring Progress Act'' or the ``SIT-REP Act.''
    This legislation is important for student veterans. This bill 
proposes requiring schools that accept VA education dollars to adopt 
veteran-friendly policies that prevent discriminating student veterans 
and their families due to payment issues from VA. The bill would 
disapprove any school that fails to adopt policies that (1) permit 
covered individuals to attend institution after providing a certificate 
of eligibility for entitlement to education benefits under Chapters 30, 
31, 33, or 35 until institution receives payment for course or 90 days 
after certificate of eligibility provided; and (2) prohibit 
institutions from imposing any penalty, including late fees, denial of 
access to classes, facilities, etc., or requirement that the individual 
borrow additional funds due to delayed benefit disbursement.
    Schools may view payments from GI Bill students as delayed, and 
thereby require students to take out unnecessary loans or assess unfair 
late fees, while the timing of the payments is under no control of the 
student. In the case of Post-9/11 GI Bill, for example, the VA requires 
the SCO to certify the student enrollment before VA authorizes payment 
for each of those students. This requirement prevents overpayments and 
otherwise potentially harmful ``clawbacks'' from students. 
Understanding that timely payments to schools is important, schools 
must recognize that penalizing students for using their earned GI Bill 
benefits due to the perceived delays of administrative burden is wholly 
inappropriate.
    In some cases, families of the fallen have been unfairly targeted 
with late fees due to the VA's delayed or late payments at no fault of 
the student.21 While some schools have received billions of dollars of 
Post-9/11 GI Bill dollars, we call on higher education as an industry 
to be flexible with service-affiliated students using VA education 
benefits, as it is greatly in their interest to find ways to support 
this important population of nontraditional students. Schools that 
already provide this level of flexibility to these students should have 
no additional burden in compliance with these rules, and Student 
Veterans of America supports the passage of this bill.
    Please contact me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="600a011205044e0c190f0e2013141504050e141605140512010e134e0f1207">[email&#160;protected]</a> or 202-223-4710 
with any questions about this issue, or the great work of our student 
veterans across the country.

    Sincerely,

    Jared Lyon

                                 <F-dash>
                           DR. JOSEPH WESCOTT
    CHAIRMAN ARRINGTON, RANKING MEMBER O'ROURKE, and Members of the 
Committee, the National Association of State Approving Agencies (NASAA) 
is pleased to provide its views on certain education benefits 
legislation under consideration by the Committee today, March 20, 2018.
    NASAA does not receive any grants or contracts directly from the 
federal government, though its member organizations are state agencies 
operating in whole or in part under federal contracts funded by 
Congress and administered by the Department of Veterans Affairs (VA).
    On behalf of fifty-one State approving agencies (SAAs), including 
the territory of Puerto Rico and the District of Columbia, NASAA thanks 
the Subcommittee on Economic Opportunity for its strong commitment to a 
better future for all service members, veterans and their families 
through its continued support of the GI Billr educational program.
    H. R. 1206, a bill to amend title 38, United States Code, to 
include the cost of applying to an institution of higher learning as 
part of the benefits provided under the Post-9/11 Educational 
Assistance Program.
    State approving agencies recognize that the costs of higher 
education continue to rise, and those costs include the fee required to 
apply to an institution of higher learning. Certainly, we believe that 
barriers to veterans' application and entrance into college should be 
removed or mitigated whenever possible. As such, we agree that the cost 
of application to an institution, capped at $750 so as to protect 
veterans and taxpayers from providers who might take advantage of this 
provision, should be payable under the GI Bill.

NASAA supports this bill.

    H. R. 3023, a bill to amend title 38, United States Code, to 
eliminate the authority of the Secretary of Veterans Affairs to pay 
reporting fees to educational institutions.
    State approving agencies take seriously our role as ``the 
gatekeepers of quality'' and the ``boots on the ground'' defending the 
integrity of the GI Bill. We are committed to making sure that only 
quality programs are approved and we do so by carefully evaluating 
facilities and curriculum while simultaneously applying federal and 
state law and regulation. An additional and equally important role is 
the continued oversight of these programs after their initial approval. 
We do so in conjunction with other stakeholders in veteran 
organizations and higher education, including state licensing agencies, 
state higher education departments, the Department of Veterans Affairs, 
the Department of Education and national and regional accrediting 
agencies.
    We also seek to encourage our approved institutions to provide 
resources and policies, which will help guarantee the success of our 
veteran students once they enroll in a SAA approved program. Congress, 
in establishing laws and regulations governing the manner and method by 
which education could be approved for veterans, has wisely provided 
that the States, through their State approving agencies, are best 
situated and staffed to evaluate and oversee educational programming 
being considered for approval and being continued for GI Bill payment. 
State approving agencies and the VA have long recognized the costs 
affiliated with administering the GI Bill at institutions. While 
institutions, as well as veterans, have benefited from increases in the 
amounts paid, there have also been marked increases in the amount of 
work and difficulty of tasks required of school certifying officials 
(SCO). To illustrate the amount of work involved, the current SCO 
Handbook, published by the VA to provide detailed instructions to 
school certifying officials, is 138 pages in length. This publication 
is revised as needed, often twice a year and SCOs are expected to be 
proficient in all areas and requirements. It is not inappropriate, 
given the increasing complexity and number of certifications and 
reports, which VA requires of schools to administer the GI Bill at 
their institutions, for the VA to reimburse a small portion of these 
expenses through reporting fees. Schools receive $16 for each student 
certified at their institution and recent legislation (PL 111-3779, 
section 304) mandates that this money be in a separate account and only 
be used for the benefit of student veterans. State approving agencies, 
as a part of their oversight duties and responsibilities, ensure that 
these monies are being used appropriately. Reporting fees are often 
used at schools for the training of SCOs and to offset the added 
administrative cost of certification. Frequently, this money is also 
used to purchase needed equipment for veterans' resource centers, 
veteran's graduation cords, and other resources to recognize and 
support the success of our veterans and their families.

NASAA opposes this bill.

    H. R. 3940, a bill to amend title 38, United States Code, to 
provide for housing stipends and supply fee payments under the Post-9/
11 Educational Assistance Program for individuals affected by extended 
school closures due to disasters.
    The upheaval to a student veteran and their family during a 
disaster can be horrendous and life altering. Recent examples of 
hurricane ravaged regions such as Puerto Rico and certain areas of 
Texas illustrate the need to allow a student veteran the opportunity to 
access a limited amount of educational assistance during such a 
traumatic time. Assistance at such times of transition can be key to 
the student being able to continue their studies or at least be 
prepared to do so when institutions return to some degree of normalcy.

NASAA supports this bill.

    H. R. 4830, a bill to amend title 38, United States Code, to 
provide for the disapproval of any course of education for purposes of 
the educational assistance programs of the Department of Veterans 
Affairs unless the educational institution providing the course permits 
individuals to attend or participate in courses pending payment by 
Department, and for other purposes.
    As mentioned earlier, State approving agencies seek to encourage 
our approved institutions to provide resources and policies, which will 
help guarantee the success of our veteran students once they enroll in 
an SAA approved program. As such, we do not consider it inappropriate 
for Congress to consider establishing, as a part of requirements for 
approval, that educational institutions grant veterans a set period of 
time during which they are protected from being unenrolled or charged 
additional fees or required to take out loans while they are awaiting 
payment from the VA of their benefits. Given the many improvements 
found in PL 115-48, which the VA is required to implement in the coming 
days, it would be understandable if there were further delays in the 
payment of educational benefits. We do agree that this protection need 
only extend to veteran students, primarily chapter 33, whose tuition 
and fees are paid by the VA directly to the schools.
    Given the fact that many leading institutions of education, 
particularly accredited public institutions of higher learning (IHLs), 
are already offering this protection to student veterans, we do not 
think it unreasonable to require that all approved educational 
institutions provide it to the students on their campus as well. In 
addition, though some might argue that in their state this has not been 
a problem, there are states wherein veteran students have faced penalty 
for late payment of benefits. Regardless, when we are discussing one of 
our nation's greatest treasures and trusts, the families of the fallen, 
even one incident is one too many.

NASAA supports this bill.

    Today, SAAs throughout our nation, composed of approximately 218 
professional and support personnel, are supervising over 10,000 active 
facilities with over 100,000 programs. We pledge to you that we will 
not fail in our critical mission and in our commitment to safeguard the 
public trust, to protect the GI Bill and to defend the future of those 
who have so nobly defended us. Mr. Chairman, NASAA thanks the Committee 
for the opportunity to share our concerns and suggestions and we commit 
to working together with you and your staff to enhance the pending 
legislation.

                                 <F-dash>
                             LARRY MADISON
    February 15, 2018

    The Honorable Gus Bilirakis
    United States House of Representatives
    Washington, DC 20515

    Dear Represenatative Bilirakis:

    On behalf of the members of The Retired Enlisted Association, a 
Congressionally- chartered veterans' service organization and the 
largest association in the nation exclusively for enlisted personnel 
and veterans from all branches of the Armed Forces, I am writing in 
support of your legislation, H.R. 4830, the ``Servicemembers Improved 
Transition through Reforms for Ensuring Progress Act'' or the ``SIT-REP 
Act.'' Your legislation would provide for the disapproval of any course 
of education for purposes of the educational assistance programs of the 
Department of Veterans Affairs unless the educational institution 
providing the course permits individuals to attend or participate in 
courses pending payment by the Department.
    Currently veterans are often penalized in ways that other students 
who are recipients of a federal educational financial assistance are 
not if the Department of Veterans Affairs payment is not provided when 
the institution requires.
    Your legislation will remedy that situation and make sure that 
veterans are not unfairly penalized. Thank you for your leadership on 
this issue.

    Respectfully,

    Larry Madison
    Legislative Director

                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
